<html>
<title> - ASSESSING THE TSA CHECKPOINT: THE PRECHECK PROGRAM AND AIRPORT WAIT TIMES</title>
<body><pre>[House Hearing, 115 Congress]
[From the U.S. Government Publishing Office]







  ASSESSING THE TSA CHECKPOINT: THE PRECHECK PROGRAM AND AIRPORT WAIT 
                                 TIMES

=======================================================================

                                HEARING

                               before the

                            SUBCOMMITTEE ON
                           TRANSPORTATION AND
                          PROTECTIVE SECURITY

                                 of the

                     COMMITTEE ON HOMELAND SECURITY
                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED FIFTEENTH CONGRESS

                             SECOND SESSION

                               __________

                              MAY 17, 2018

                               __________

                           Serial No. 115-64

                               __________

       Printed for the use of the Committee on Homeland Security
                                     




[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


                                     

        Available via the World Wide Web: http://www.govinfo.gov
                               __________

 		 
                     U.S. GOVERNMENT PUBLISHING OFFICE 
		 
32-637 PDF                WASHINGTON : 2018                 































                     COMMITTEE ON HOMELAND SECURITY

                   Michael T. McCaul, Texas, Chairman
Lamar Smith, Texas                   Bennie G. Thompson, Mississippi
Peter T. King, New York              Sheila Jackson Lee, Texas
Mike Rogers, Alabama                 James R. Langevin, Rhode Island
Lou Barletta, Pennsylvania           Cedric L. Richmond, Louisiana
Scott Perry, Pennsylvania            William R. Keating, Massachusetts
John Katko, New York                 Donald M. Payne, Jr., New Jersey
Will Hurd, Texas                     Filemon Vela, Texas
Martha McSally, Arizona              Bonnie Watson Coleman, New Jersey
John Ratcliffe, Texas                Kathleen M. Rice, New York
Daniel M. Donovan, Jr., New York     J. Luis Correa, California
Mike Gallagher, Wisconsin            Val Butler Demings, Florida
Clay Higgins, Louisiana              Nanette Diaz Barragan, California
John H. Rutherford, Florida
Thomas A. Garrett, Jr., Virginia
Brian K. Fitzpatrick, Pennsylvania
Ron Estes, Kansas
Don Bacon, Nebraska
                   Brendan P. Shields, Staff Director
                   Steven S. Giaier,  General Counsel
                    Michael S. Twinchek, Chief Clerk
                  Hope Goins, Minority Staff Director
                                 ------                                

         SUBCOMMITTEE ON TRANSPORTATION AND PROTECTIVE SECURITY

                     John Katko, New York, Chairman
Mike Rogers, Alabama                 Bonnie Watson Coleman, New Jersey
Clay Higgins, Louisiana              William R. Keating, Massachusetts
Brian K. Fitzpatrick, Pennsylvania   Donald M. Payne, Jr., New Jersey
Ron Estes, Kansas                    Bennie G. Thompson, Mississippi 
Michael T. McCaul, Texas (ex             (ex officio)
    officio)
               Kyle D. Klein, Subcommittee Staff Director




























                            C O N T E N T S

                              ----------                              
                                                                   Page

                               STATEMENTS

The Honorable John Katko, a Representative in Congress From the 
  State of New York, and Chairman, Subcommittee on Transportation 
  and Protective Security:
  Oral Statement.................................................     1
  Prepared Statement.............................................     3
The Honorable Bonnie Watson Coleman, a Representative in Congress 
  From the State of New Jersey, and Ranking Member, Subcommittee 
  on Transportation and Protective Security:
  Oral Statement.................................................     4
  Prepared Statement.............................................     8
The Honorable Bennie G. Thompson, a Representative in Congress 
  From the State of Mississippi, and Ranking Member, Committee on 
  Homeland Security:
  Prepared Statement.............................................     9

                               WITNESSES
                                Panel I

Mr. Darby LaJoye, Assistant Administrator, Office of Security 
  Operations, Transportation Security Administration, U.S. 
  Department of Homeland Security:
  Oral Statement.................................................    10
  Prepared Statement.............................................    11
Mr. William Russell, Acting Director, Homeland Security and 
  Justice Team, U.S. Government Accountability Office:
  Oral Statement.................................................    14
  Prepared Statement.............................................    15

                                Panel II

Ms. Lorraine Howerton, Senior Director of Government Relations, 
  U.S. Travel Association:
  Oral Statement.................................................    33
  Prepared Statement.............................................    35
Ms. Sharon L. Pinkerton, Senior Vice President, Legislative and 
  Regulatory Policy, Airlines for America:
  Oral Statement.................................................    38
  Prepared Statement.............................................    40
Ms. Wendy Reiter, Director of Aviation Security, Seattle/Tacoma 
  International Airport, Testifying on Behalf of The American 
  Association of Airport Executives:
  Oral Statement.................................................    44
  Prepared Statement.............................................    45
Mr. Michael W. McCormick, Executive Director and Chief Operating 
  Officer, Global Business Travel Association:
  Oral Statement.................................................    48
  Prepared Statement.............................................    50

                             FOR THE RECORD

The Honorable Bonnie Watson Coleman, a Representative in Congress 
  From the State of New Jersey, and Ranking Member, Subcommittee 
  on Transportation and Protective Security:
  Article........................................................     5

                                APPENDIX

Questions From Honorable Bonnie Watson Coleman for Darby LaJoye..    61
Questions From Ranking Member Watson Coleman for William Russell.    64
Questions From Ranking Member Watson Coleman for Wendy Reiter....    64
Questions From Ranking Member Watson Coleman for Michael W. 
  McCormick......................................................    64

 
  ASSESSING THE TSA CHECKPOINT: THE PRECHECK PROGRAM AND AIRPORT WAIT 
                                 TIMES

                              ----------                              


                         Thursday, May 17, 2018

             U.S. House of Representatives,
                    Subcommittee on Transportation 
                           and Protective Security,
                            Committee on Homeland Security,
                                                    Washington, DC.
    The subcommittee met, pursuant to notice, at 10:11 a.m., in 
room HVC-210, Capitol Visitor Center, Hon. John Katko (Chairman 
of the subcommittee) presiding.
    Present: Representatives Katko, Rogers, Fitzpatrick, Estes, 
Watson Coleman, and Keating.
    Mr. Katko. OK. The Committee on Homeland Security 
Subcommittee on Transportation and Protective Security will 
come to order. Let me apologize for my delay today, this is I 
think my third or fourth meeting already today, so I am already 
behind and I apologize for that. The subcommittee is meeting 
today to assess the Transportation Security Administration's 
preparedness for the approaching peak summer travel period.
    I now recognize myself for an opening statement. The summer 
months have historically seen an increase in aviation travels 
this year, and this year is no exception. Following a record-
breaking 2018 spring travel season, the warmer temperatures of 
summer are expected to draw even bigger passenger volumes. In 
fact, TSA is preparing for its busiest travel season ever, and 
expect to screen more than 243 million passengers and crew from 
Memorial Day through Labor Day. That is a stunning number.
    We have seen this situation before in 2016, when 
unprecedented passenger volumes overwhelmed checkpoints across 
the Nation. Many people missed flights due to wait times in 
excess of 75 minutes, although some reports contended that wait 
times were closer to 3 hours. Passengers shared photos and 
anecdotes on-line of seemingly interminable airport security 
lines and the hashtag iHateTheWait united disgruntled 
passengers across the country.
    History has a way of repeating itself, and TSA currently 
faces pressure from Congress, the public, and aviation 
stakeholders to avoid past mistakes. Therefore, the purpose of 
this hearing is to evaluate TSA's preparedness to accommodate 
the demands of this year's peak summer travel. TSA's 
preparedness ultimately ensures the security of the traveling 
public, but efficient checkpoint operations also bolster the 
free movement of people and goods, which brings in billions of 
dollars to the U.S. economy each year.
    Conversely, as evidenced by the 2016 wait time crisis, the 
checkpoint can also be the chokepoint that prevents the 
aviation sector from functioning seamlessly. This in itself can 
prove to be an adverse security scenario in a time when threats 
to crowded spaces of public areas are an increasing concern.
    In short, all roads lead back to the checkpoint, which is 
why this hearing today is so important and so timely. While a 
variety of factors may have negatively impacted operations at 
individual airports, we can point to three major errors that 
helped to generate a perfect storm in 2016.
    First, TSA's staffing allocation model did not accurately 
represent the unique needs or true operation conditions of 
individual airports. Compounded with a pervasive transportation 
security officer staffing shortage and high attrition rate, 
miscalculations prevented TSA from responding promptly to 
increase in--to increases in passenger wait times.
    Second, deficient communication between TSA and 
stakeholders resulted in missed opportunities to share flight 
schedules, staffing plans, and facility changes in real time.
    Third, TSA significantly overestimated the amount of 
passengers who would receive expedited screening by way of 
Trusted Traveler Programs like PreCheck or Global Entry. 
Specifically, TSA assumed that 50 percent of passengers would 
use expedited screening, but only about 27 percent of 
passengers used expedited screening in 2016, and we have got to 
work on that.
    Last Congress, the House and Senate passed my bill, the 
Checkpoint Optimization and Efficiency Act, to address the 
gridlock at airport checkpoints throughout the United States 
and boost enrollment in TSA PreCheck. I look forward to 
discussing how this legislation has impacted enrollment figures 
and how TSA plans to continue their expansion efforts. We are 
nowhere near where we need to be and we have got to get better 
at it.
    While TSA has come a long way since the wait times crisis 
in 2016, I would be remiss if I did not acknowledge the 
similarities between the conditions today and the conditions 2 
years ago. Passenger volume continues to grow by about 4 
percent a year, and TSA's staffing has not kept pace. Despite 
TSA's concerted efforts to recruit and retain quality TSOs, the 
TSO attrition rate continues to be troubling and has a direct 
impact on the availability of screening lanes at airports.
    In turn, the limited availability of screening lanes 
translate to longer checkpoint wait times and an increasing 
reliance on expedited screening measures to facilitate 
throughput. Lately, despite vocal disapproval from this 
subcommittee, TSA has been granting PreCheck status to 
passengers who have not enrolled in the program in an effort to 
reduce congestion at checkpoints. I myself have personally 
witnessed this on many occasions.
    I have repeatedly expressed to TSA that PreCheck should not 
be used to manage traffic, especially under the guise of risk-
based security. In the near future, I will be introducing 
legislation to ensure that PreCheck lanes are available only to 
PreCheck passengers in PreCheck or another Trusted Traveler 
Program.
    PreCheck, when used as designed, is a valuable tool that 
enables TSA to assess a passenger's risk to aviation security 
prior to their arrival at an airport checkpoint. By providing 
expedited screening to pre-vetted populations, TSA can direct 
additional TSOs to standard lanes to screen unknown travelers. 
PreCheck and other Trusted Traveler Programs when used as 
designed--not as currently implemented--are undoubtedly some of 
the best tools in TSA's toolbox.
    However, TSA's efforts to increase enrollment, 
participation in the PreCheck program has stagnated after 
reaching nearly 6 million travelers. Undoubtedly, many 
passengers are frustrated by TSA's frivolous practice of 
merging non-enrolled travelers into PreCheck screening lanes 
and disappointed in the limited availability of PreCheck lanes 
in many airports.
    The efficient operation of airport checkpoints combined 
with effective management of the PreCheck program go hand-in-
hand when it comes to the overall security mission of TSA. That 
is why I am pleased to have two distinguished panels here today 
from both the public and private sectors representing a 
diversity of perspectives on this issue, and I look forward to 
hearing from them on how we can move all forward, in a 
collaborative spirit, to provide better, more efficient 
security to the American people.
    I would like to thank Mr. Darby LaJoye and Mr. Bill 
Russell, who--as well as our second panel--for appearing before 
this subcommittee today to discuss this important topic.
    [The statement of Chairman Katko follows:]
                    Statement of Chairman John Katko
                              May 17, 2018
    The summer months have historically seen an increase in aviation 
travel, and this year is no exception. Following a record-breaking 2018 
spring travel season, the warmer temperatures of summer are expected to 
draw even bigger passenger volumes. In fact, TSA is preparing for its 
busiest travel season ever and expects to screen more than 243 million 
passengers and crew from Memorial Day through Labor Day.
    We've seen this situation before in 2016 when unprecedented 
passenger volumes overwhelmed checkpoints across the Nation. Many 
people missed flights due to wait times in excess of 75 minutes, 
although some reports contended that wait times were closer to 3 hours. 
Passengers shared photos and anecdotes on-line of seemingly 
interminable airport security lines, and the hashtag, #HateTheWait, 
united disgruntled passengers across the country.
    History has a way of repeating itself, and TSA currently faces 
pressure from Congress, the public, and aviation stakeholders to avoid 
past mistakes. Therefore, the purpose of this hearing is to evaluate 
TSA's preparedness to accommodate the demands of this year's peak 
summer travel.
    TSA's preparedness ultimately ensures the security of the traveling 
public, but efficient checkpoint operations also bolster the free 
movement of people and goods, which brings in billions of dollars to 
the U.S. economy each year. Conversely, as evidenced by the 2016 wait 
times crisis, the checkpoint can also be the choke point that prevents 
the aviation sector from functioning seamlessly.
    This, in itself, can prove to be an adverse security scenario, in a 
time when threats to crowded spaces of public areas are an increasing 
concern. In short, all roads lead back to the checkpoint, which is why 
this hearing today is so important and timely.
    While a variety of factors may have negatively impacted operations 
at individual airports, we can point to three major errors that helped 
to generate a perfect storm in 2016.
    First, TSA's staffing allocation model did not accurately represent 
the unique needs or true operating conditions of individual airports. 
Compounded with a pervasive Transportation Security Officer (TSO) 
staffing shortage and high attrition rate, miscalculations prevented 
TSA from responding promptly to increases in passenger wait times.
    Second, deficient communication between TSA and stakeholders 
resulted in missed opportunities to share flight schedules, staffing 
plans, and facility changes in real time.
    Third, TSA significantly overestimated the amount of passengers who 
would receive expedited screening by way of trusted traveler programs 
like PreCheck or Global Entry. Specifically, TSA assumed that 50 
percent of passengers would use expedited screening, but only about 27 
percent of passengers used expedited screening in 2016. Last Congress, 
the House and Senate passed my bill, the Checkpoint Optimization and 
Efficiency Act, to address the gridlock at airport checkpoints 
throughout the United States and boost enrollment in TSA PreCheck. I 
look forward to discussing how this legislation has impacted enrollment 
figures and how TSA plans to continue expansion efforts.
    While TSA has come a long way since the wait times crisis in 2016, 
I would be remiss if I did not acknowledge the similarities between the 
conditions today and the conditions 2 years ago. Passenger volume 
continues to grow by about 4 percent each year and TSO staffing has not 
kept pace. Despite TSA's concerted efforts to recruit and retain 
quality TSOs, the TSO attrition rate continues to be troubling and has 
a direct impact on the availability of screening lanes at airports. In 
turn, the limited availability of screening lanes translates to longer 
checkpoint wait times and an increased reliance on expedited screening 
measures to facilitate throughput.
    Lately, despite vocal disapproval from this subcommittee, TSA has 
been granting PreCheck status to passengers who have not enrolled in 
the program in an effort to reduce congestion at checkpoints. I have 
repeatedly expressed to TSA that PreCheck should not be used to manage 
traffic, especially under the guise of risk-based security. In the near 
future, I will be introducing legislation to ensure that PreCheck lanes 
are available only to passengers enrolled in PreCheck or another 
Trusted Traveler Program. PreCheck, when used as designed, is a 
valuable tool that enables TSA to assess a passenger's risk to aviation 
security prior to their arrival at an airport checkpoint. By providing 
expedited screening to pre-vetted populations, TSA can direct 
additional TSOs to standard lanes to screen unknown travelers.
    PreCheck and other Trusted Traveler Programs, when used as 
designed, are undoubtedly some of the best tools in TSA's toolbox. 
However, despite TSA's efforts to increase enrollment, participation in 
the PreCheck program has stagnated after reaching nearly 6 million 
travelers. Undoubtedly, many passengers are frustrated by TSA's 
frivolous practice of merging non-enrolled travelers into PreCheck 
screening lanes and disappointed in the limited availability of 
PreCheck lanes at many airports.
    The efficient operation of airport checkpoints, combined with 
effective management of the PreCheck program, go hand-in-hand when it 
comes to the overall security mission of TSA. That is why I am pleased 
to have two distinguished panels here today from both the public and 
private sectors, representing a diversity of perspectives, and I look 
forward to hearing how we can all move forward in a collaborative 
spirit to provide better, more efficient security to the American 
people.

    Mr. Katko. I am pleased to recognize the Ranking Member of 
this subcommittee, the gentlelady from New Jersey, Ms. Watson 
Coleman, for her opening statement.
    Ms. Watson Coleman. Good morning and thank you, Mr. 
Chairman. Thank you for holding this hearing, and I want to 
thank the witnesses for both panels for agreeing to be here 
today. It is good to have TSA here, because your work is so 
important and we always have so many questions and things are 
always sort-of very dynamic and moving along.
    TSA has, however, had a long struggle with how to more 
sufficiently and effectively manage its resources. In 2011, TSA 
introduced the PreCheck program for low-risk passengers who 
provide fingerprints and undergo background checks to receive 
expedited screening--security screening. Used in combination 
with intelligence and watchlist-matching programs, PreCheck 
allows TSA to focus its limited screening resources more 
effectively.
    The PreCheck program has, however, had some setbacks. 
Unfortunately, by 2013, TSA's efforts to drive more passenger 
traffic into PreCheck lanes caused it to adopt a practice known 
as the Managed Inclusion, which rely heavily upon behavior 
detection officers and iPod randomizing apps to expedite 
screening for large members of--numbers of passengers who had 
not enrolled in PreCheck.
    Last Congress, Ranking Member Thompson introduced a bill to 
curtail the use of Managed Inclusion, and after the bill passed 
the House, then-Administrator Neffenger directed that the 
practice be phased out.
    Although Managed Inclusion came to an end in September, 
2015, TSA continues to use passenger screening K-9s and other 
tools to pre-scan--to prescreen passengers who have not 
enrolled in PreCheck and provide them access to expedited 
screening.
    TSA has said it intends to modify these practices. Given 
the evolving threat landscape, it must do so expeditiously. 
Every passenger must receive an appropriate level of screening. 
TSA must also address the underlying factors that have led to 
these practices. TSA has cited a lack of enrollment in PreCheck 
and other DHS Trusted Traveler Programs as one reason for their 
development. However, these practices may provide a 
disincentive for those who would otherwise consider enrolling 
in PreCheck, thus inhibiting the growth of the program.
    TSA has struggled to partner with industry effectively to 
encourage creative enrollment solutions, as the agency withdrew 
a request for proposals in 2016 citing ``cybersecurity 
concerns.'' I encourage TSA to work through these concerns and 
issue a new solicitation.
    In addition, TSA has cited growing passenger volume and a 
lack of sufficient staffing as major challenges. In the summer 
of 2016, we saw unacceptably long wait lines--wait times at TSA 
checkpoints, as staffing levels were insufficient to process 
the number of travelers. TSA has increased its staff since that 
time, but it has not kept pace with increases in passenger 
volumes, and the President's fiscal year 2019 budget proposal 
does not request enough staff to close the gap.
    I hope future TSA budget proposals will be more realistic 
when it comes to staffing levels. By increasing Trusted 
Traveler Program enrollments and staffing levels, TSA could 
take another step forward in developing a risk-based security 
model. Excuse me.
    I also want to mention an article from this morning's New 
York Times, which I would like to enter into the record, Mr. 
Chairman.
    Mr. Katko. Without objection, so ordered.
    [The information follows:]
          Article Submitted by Honorable Bonnie Watson Coleman
   watch list shields t.s.a. screeners from threatening, and unruly, 
                               travelers
By Ron Nixon, May 17, 2018.
    WASHINGTON.--The Transportation Security Administration has created 
a new secret watch list to monitor people who may be targeted as 
potential threats at airport checkpoints simply because they have 
swatted away security screeners' hands or otherwise appeared unruly.
    A five-page directive obtained by The New York Times said actions 
that pose physical danger to security screeners--or other contact that 
the agency described as ``offensive and without legal justification''--
could land travelers on the watch list, which was created in February 
and is also known as a ``95 list.''
    ``An intent to injure or cause physical pain is not required, nor 
is an actual physical injury,'' according to the directive that was 
issued in March by Darby LaJoye, the agency's assistant administrator 
for security operations.
    The existence of the new watch list, which has not previously been 
disclosed, is expected to be discussed Thursday at a House homeland 
security subcommittee hearing.
    So far, the names of fewer than 50 people have been put on the 
watch list, said Kelly Wheaton, a T.S.A. deputy chief counsel.
    But two other government security officials who are familiar with 
the new watch list, describing it on the condition of anonymity because 
they were not authorized to discuss it, said that the number of names 
on the list could be higher, with travelers added daily.
    According to the directive, people who loiter suspiciously near 
security checkpoints could be put on the watch list. So could those who 
present what the document vaguely described as ``challenges to the safe 
and effective completion of screening.''
    The guidelines prohibit profiling based on race, religion or 
gender, and said those categories could not be used as the sole reason 
for including a passenger on the watch list. But the directive said 
such factors could be used when they are relevant and fit specific 
intelligence.
    However, on its own, the watch list cannot be used to prevent 
passengers from boarding flights, nor can it impel extra screening at 
security checkpoints, according to the document. That has raised 
questions about whether it serves a legitimate security purpose, and 
has heightened civil liberty concerns over the added government 
surveillance.
    ``If I'm running late, having a bad day and I'm rude to the 
screeners, do I get put on the list?'' said Fred Burton, the chief 
security officer at Stratfor, a global intelligence company in Austin, 
Tex.
    ``The bottom line is that in the post 9/11 world, do we really need 
another watch list--particularly one from the T.S.A., which is not an 
intelligence agency?'' said Mr. Burton, a former deputy chief of 
counterterrorism at the State Department's Diplomatic Security Service.
    Mr. Wheaton said the new list aims to protect airport security 
screeners from travelers who previously have been demonstrably unruly 
at, or near, checkpoints. He said screeners were assaulted 34 times 
last year, up from 26 in 2016.
    Matthew F. Leas, a T.S.A. spokesman, said in an email that the 
agency ``wants to ensure there are safeguards in place to protect 
Transportation Security Officers (TSOs) and others from any individual 
who has previously exhibited disruptive or assaultive behavior at a 
screening checkpoint and is scheduled to fly.''
    The United States government maintains a bevy of watch lists.
    The most well-known, maintained by the F.B.I., is a large database 
of the names of more than one million people--including tens of 
thousands of American citizens or legal residents--who are known or 
suspected terrorists. Officials rely on that database to compile the 
no-fly list that has been criticized for barring travelers based on 
mistaken identities, including prominent politicians, celebrities and 
young children.
    The Secret Service maintains a watch list of people who pose a 
potential threat to government officials or buildings. It publicly 
discloses the types of information it collects in the database, but not 
the names that are on it.
    But the new T.S.A. database, according to people familiar with it, 
includes travelers who have simply had a verbal altercation with 
security officers or have taken other actions that the agency said 
interferes in the screening process.
    Civil liberties groups said that makes it even more likely that 
individuals who do pose not pose a threat to airports or planes will be 
swept up in the United States' homeland security system.
    ``While people on the list are not necessarily subject to 
additional scrutiny, it seems likely that agents would single them out 
for additional attention, and there is no way to get off the list,'' 
said Faiza Patel, a director of the Liberty and National Security 
Program at New York University's Brennan Center for Justice.
    She said that because the watch list will be shared with other law 
enforcement agencies, ``it will be difficult to control the 
consequences.''
    Federal security directors, top T.S.A. security officials at 
airports and top Air Marshals supervisors can nominate individuals to 
be put on the watch list. Only the T.S.A. administrator, his deputy and 
the top two officials at the agency's Office of Intelligence and 
Analysis may add or remove people from the database.
    The directive obtained by The Times does not specify how members of 
the public can appeal being included on the list.
    Government watchdogs have long criticized such watch lists, 
especially after evidence concluding that as high as 35 percent of the 
names that are designated for inclusion are either outdated or added 
without adequate factual basis. Individuals are denied any meaningful 
way to correct errors and clear their names.
    In recent years, the government has established rules that are 
intended to prevent intelligence agencies from keeping secretive, open-
ended watch lists based on suspicions that are ultimately unfounded.
    The T.S.A. security operations have long been criticized for 
targeting racial and religious minorities for extra screening. A number 
of African-American women have said screeners have searched their hair, 
even after the agency said the practice was halted.
    Most recently, the agency apologized to Navdeep Bains, Canada's 
minister of innovation, science and economic development, after he was 
repeatedly asked by screeners at the Detroit Metropolitan Airport to 
remove his turban. Mr. Bains, who was in the United States to deliver a 
speech, is a Sikh whose religion requires him to wear a turban.
    The agency later admitted that surveillance video showed that the 
screener did not follow standard operating procedures, and said that 
screeners had received additional training as a result of the episode.
    https://www.nytimes.com/2018/05/17/us/politics/new-watch-list-tsa-
screeners-.html.

    Ms. Watson Coleman. Thank you. This article discusses a 
secret watch list that TSA maintains to monitor people who may 
be potential threats at airport checkpoints on the grounds that 
they may appear suspicious or rowdy. I look forward to hearing 
more from TSA about this watch list, as I am concerned about 
the civil liberty implications of such a list.
    Finally, at a hearing where we were--are discussing 
passenger volumes with travel industry experts, I would be 
remiss if I did not note some disturbing trends in recent 
travel data. While domestic travel continues to increase, the 
same cannot be said of international travel to the United 
States. According to the Department of Commerce, in just the 
first 3 months of the--Trump's presidency, nearly 700,000 fewer 
foreign travelers visited the United States than normal, 
representing a 4.2 percent decrease and a loss of $2.7 billion 
in spending.
    Over the first 9 months of 2017, U.S. arrivals dropped by 
1.4 percent, despite international travel increasing world-wide 
by 4.6 percent. It is plain and obvious that the President's 
rhetoric and policies are having a depressing effect on the 
desire of foreign travelers to visit our beautiful country.
    His racially- and religiously-motivated travel bans, his 
obsession with building a wall and separating children from 
their mothers at the border, and his disparaging remarks toward 
the people of Mexico, Haiti, El Salvador, and the entire 
continent of Africa hurt our country's reputation and sends the 
message that outsiders are not welcome here. Just yesterday, he 
called immigrants ``animals,'' disrespectful, dangerous 
language that should never be spoken by a President.
    Tourism represents the seventh-largest employer in the 
United States, as international travel supports 1.2 million 
American jobs, accounting for $32.4 billion in wages. I look 
forward to discussing with our travel industry witnesses that 
are here today how the President has put their industry at 
risk.
    Again, I thank my Chairman and our witnesses for coming, 
and I yield back the balance of my time.
    [The statement of Ranking Member Watson Coleman follows:]
           Statement of Ranking Member Bonnie Watson Coleman
                              May 17, 2018
    TSA has long struggled with how to most efficiently and effectively 
manage its resources. In 2011, TSA introduced the PreCheck program for 
low-risk passengers who provide fingerprints and undergo background 
checks to receive expedited security screening.
    Used in combination with intelligence and watchlist-matching 
programs, PreCheck allows TSA to focus its limited screening resources 
more effectively. The PreCheck program has had some setbacks.
    Unfortunately, by 2013, TSA's efforts to drive more passenger 
traffic into PreCheck lanes caused it to adopt a practice known as 
``Managed Inclusion'' which relied heavily upon Behavior Detection 
Officers and iPad randomizing apps to expedite screening for large 
numbers of passengers who had not enrolled in PreCheck.
    Last Congress, Ranking Member Thompson introduced a bill to curtail 
the use of Managed Inclusion, and after the bill passed the House, 
then-Administrator Neffenger directed that the practice be phased out.
    Although Managed Inclusion came to an end in September 2015, TSA 
continues to use Passenger Screening Canines and other tools to pre-
screen passengers who have not enrolled in PreCheck and provide them 
access to expedited screening.
    TSA has said it intends to modify these practices. Given the 
evolving threat landscape, it must do so expeditiously. Every passenger 
must receive an appropriate level of screening. TSA must also address 
the underlying factors that have led to these practices.
    TSA has cited a lack of enrollments in PreCheck and other DHS 
Trusted Traveler Programs as one reason for their development.
    However, these practices may provide a disincentive for those who 
otherwise may consider enrolling in PreCheck, thus inhibiting the 
growth of the program.
    TSA has struggled to partner with industry effectively to encourage 
creative enrollment solutions, as the agency withdrew a request for 
proposals in 2016 citing cybersecurity concerns.
    I encourage TSA to work through those concerns and issue a new 
solicitation.
    In addition, TSA has cited growing passenger volume and a lack of 
sufficient staffing as major challenges.
    In the summer of 2016, we saw unacceptably long wait times at TSA 
checkpoints, as staffing levels were insufficient to process the number 
of travelers.
    TSA has increased its staff since that time, but it has not kept 
pace with increases in passenger volumes, and the President's fiscal 
year 2019 budget proposal does not request enough staff to close the 
gap.
    I hope future TSA budget proposals will be more realistic when it 
comes to staffing levels.
    By increasing Trusted Traveler Program enrollments and staffing 
levels, TSA could take another step forward in developing a risk-based 
security model.
    I also want to mention an article from this morning's New York 
Times, which I'd like to enter into the record. This article discusses 
a ``secret watch list'' that TSA maintains to monitor people who may be 
potential threats at airport checkpoints on the grounds that they may 
appear suspicious or unruly.
    I look forward to hearing more from TSA about this watch list, as I 
am concerned about the civil liberty implications of such a list.
    Finally, at a hearing where we are discussing passenger volumes 
with travel industry experts, I would be remiss if I did not note some 
disturbing trends in recent travel data.
    While domestic travel continues to increase, the same cannot be 
said of international travel to the United States.
    According to the Department of Commerce, in just the first 3 months 
of Donald Trump's presidency, nearly 700,000 fewer foreign travelers 
visited the United States than normal, representing a 4.2 percent 
decrease and a loss of $2.7 billion in spending.
    Over the first 9 months of 2017, U.S. arrivals dropped by 1.4 
percent despite international travel increasing world-wide by 4.6 
percent.
    It is plain and obvious that the President's rhetoric and policies 
are having a depressing effect on the desire of foreign travelers to 
visit our beautiful country.
    His racially- and religiously-motivated travel bans, his obsession 
with building a wall and separating children from their mothers at the 
border, and his disparaging remarks toward the people of Mexico, Haiti, 
El Salvador, and the entire continent of Africa hurt our country's 
reputation and send the message that outsiders are not welcome here.
    Just yesterday, he called immigrants ``animals''--disrespectful, 
dangerous language that should never be spoken by a President.
    Tourism represents the seventh-largest employer in the United 
States, as international travel supports 1.2 million American jobs, 
accounting for $32.4 billion in wages. I look forward to discussing 
with our travel industry witnesses how the President has put their 
industry at risk.

    Mr. Katko. Thank you, Mrs. Watson Coleman. All the Members 
of this subcommittee are reminded that opening statements may 
be submitted for the record.
    [The statement of Ranking Member Thompson follows:]
             Statement of Ranking Member Bennie G. Thompson
                              May 17, 2018
    I certainly appreciate the challenging job that TSA has in 
accommodating the increase in domestic travelers while striving to 
maintain the safe, secure, and reliable air transit that the flying 
public expects and deserves. Long wait times at airports do not just 
create an unpleasant flying experience, but present broader security 
concerns as crowded checkpoints can quickly become soft targets.
    While I understand that TSA must find creative approaches to strike 
that difficult balance, I do echo many of the Chairman's concerns 
regarding the inclusion of unvetted individuals in the PreCheck 
program. I addressed some of these concerns last Congress, when I 
introduced the ``Securing Expedited Screening Act'' with Chairman Katko 
and then-Subcommittee on Transportation Protective Security Ranking 
Member Kathleen Rice.
    This legislation sought to address security vulnerabilities in how 
TSA drove traffic to PreCheck lanes by restricting access to expedited 
airport security screening to PreCheck program participants and other 
``known'' or vetted passengers. After the bill passed the House in July 
2015, TSA ended the practice known as ``Managed Inclusion.'' However, 
TSA has more work to do.
    While I am fully committed to working with TSA to avoid wait times 
like we saw in the summer of 2016, I do believe that expedited 
screening should be limited to those who are thoroughly vetted. I look 
forward to hearing TSA's plans for getting us to a place where this is 
a reality.
    Additionally, while I am pleased that domestic travel continues to 
grow and interested in hearing TSA's plans to accommodate this growth, 
I am troubled by the downturn in international travel to the United 
States. I hope to gain more perspective on this recent concerning trend 
from industry stakeholders present here today.

    Mr. Katko. We are pleased to have two distinguished panels 
of witnesses before us today. Let me remind the witnesses that 
your entire written statement will be--will appear in the 
record.
    On our first panel, we are pleased to have Mr. Darby 
LaJoye, the assistant administrator for TSA's Office of 
Security Operations, here to testify before us today on this 
critical topic. In his role as assistant administrator, Mr. 
LaJoye oversees airport checkpoints and baggage screening 
operations, regulatory compliance, cargo inspections, and other 
specialized programs designed to secure transportation.
    Previously, Mr. LaJoye served as a Federal security 
director of Los Angeles, and was responsible for Los Angeles 
International Airport, Ontario International Airport, and Palm 
Springs International Airport, with intermodal responsibilities 
throughout Southern California and Hawaii. He also served as 
the Federal security director at John F. Kennedy International 
Airport in New York, and before joining TSA, Mr. LaJoye was in 
the U.S. Army in various light infantry and airborne units--
just like my son, who is going to--going to Ranger school in 
about a month.
    Sir, thank you for your service to this country and for 
continuing your service in your current role. You are now 
recognized for 5 minutes for an opening statement.

 STATEMENT OF DARBY LAJOYE, ASSISTANT ADMINISTRATOR, OFFICE OF 
 SECURITY OPERATIONS, TRANSPORTATION SECURITY ADMINISTRATION, 
              U.S. DEPARTMENT OF HOMELAND SECURITY

    Mr. LaJoye. Good afternoon, Chairman Katko, Ranking Member 
Watson Coleman, and distinguished Members of the subcommittee. 
Thank you for the opportunity to appear before you today, along 
with Mr. Bill Russell of the Government Accountability Office, 
to discuss the Transportation Security Administration's 
approach to the upcoming summer travel season and TSA PreCheck.
    As the executive assistant administrator for security 
operations, I am responsible for overseeing the TSA's front-
line employees who are charged with ensuring the free movement 
of people and commerce while safeguarding the traveling public 
from a determined and dynamic adversary.
    Last year's terrorist plot in Australia reminds us of what 
we have known for some time. The threat to aviation is as real 
as ever. Current intelligence indicates that commercial 
aviation remains a top-priority target, and our adversaries 
continue to educate their followers on building and concealing 
explosives to evade checkpoint security measures. Meanwhile, a 
pattern of less sophisticated techniques and tactics has also 
emerged.
    In short, attacks today may be sophisticated and well-
planned with a goal of causing massive global economic impacts 
or impromptu acts with little preparation other than the desire 
to inflict damage and create fear. The atrocities at Brussels 
International Airport and Istanbul Ataturk Airport in 2016, as 
well as attacks in Nice, Paris, Stockholm, Hamburg, Barcelona, 
London, and Manhattan highlight the evolving tactics and 
techniques employed by terrorists that target civilians in 
public areas.
    The global intelligence and security community, including 
the aviation security community, must continually reassess our 
detection and disruption tactics.
    At the same time, the world's reliance on the aviation 
network to facilitate the movement of people and goods 
continues to grow. On an average day in 2017, TSA officers came 
into contact with nearly 2.1 million travelers at one of more 
than 440 Federalized airports Nation-wide. And travel volumes 
continue to increase. While TSA continues to achieve its 
objectives, meeting growing demands comes at the cost of 
training and personal leave requirements for our officers. 
Those tradeoffs ultimately impact morale, turnover, and 
performance. The additional 717 officers included in the fiscal 
year 2019 budget request will help address the current 
shortfall.
    TSA is now preparing for what is projected to be one of the 
agency's busiest summer seasons on record. To ensure there are 
sufficient officers available to meet the summer demand, TSA 
has conducted hiring events at hard-to-hire and high-volume 
airports, increased advertising and media outreach to recruit 
new hires, and improved the hiring and new employee training 
processes. These efforts will ensure TSA's position to 
effectively meet projected screening demands this summer, while 
mitigating passenger wait times at our checkpoints.
    In addition to ensuring availability of staff to meet 
increased passenger volumes, both K-9s and enhanced technology 
will play an integral role in TSA's checkpoint strategy. This 
summer, TSA expects an additional 50 operational passenger 
screening K-9 teams as compared to July 2017. Along with 
expanded K-9 use, TSA has committed to enhancing checkpoint 
screening for the strategic deployment of new and effective 
technology.
    Presently, TSA is in the process of testing computed 
tomography screening systems for use at domestic airport 
checkpoints. We expect to have approximately 35 systems 
deployed at our labs, in our training centers, or at our 
airports over the course of the summer.
    Another effective tool to assist with checkpoint efficiency 
is a comprehensive Trusted Traveler Program. Currently, there 
are more than 13 million travelers in DHS Trusted Traveler 
Programs, including 6.4 million enrolled in TSA PreCheck. Since 
2014, we have seen the Trusted Traveler population increase by 
500 percent.
    TSA is also focusing on expanding vetting capabilities and 
implementing innovative technology procedures that will allow 
us to move to a fundamentally more dynamic system of segmenting 
passengers according to risk and applying the appropriate level 
of screening.
    In closing, TSA remains dedicated to securing the Nation's 
transportation systems from terrorist attacks. We will continue 
to improve transportation security through a committed work 
force and the development and implementation of intelligence-
driven risk-based policies and plans.
    I appreciate the subcommittee's continued support of the 
TSA mission, and thank you for the opportunity to appear before 
you today. I look forward to--look forward to answering your 
questions.
    [The prepared statement of Mr. LaJoye follows:]
                   Prepared Statement of Darby LaJoye
                              May 17, 2018
                              introduction
    Chairman Katko, Ranking Member Watson Coleman, and Members of the 
subcommittee, thank you for the invitation to testify today regarding 
the Transportation Security Administration's (TSA) PreCheck program and 
our preparations for the upcoming summer travel season. TSA appreciates 
the subcommittee's oversight and commitment to ensuring the agency has 
the tools it needs to accomplish its mission. TSA continues its efforts 
to raise the global baseline of aviation security. The agency is 
leading by example through intelligence-driven operations, layered 
security, and enhanced passenger and crew vetting.
    TSA's most important job, as a National security organization, is 
to protect the traveling public and ensure freedom of movement for 
people and commerce. The adversary we face is determined and committed. 
The threat to transportation within our country, and around the globe, 
is real and dynamic. TSA addresses this threat by strengthening 
operations through developing and maintaining a committed workforce, 
refining its processes, and testing and deploying new technology to 
improve performance. Noting such, it is imperative to recognize that 
the essential element of our agency's overarching success rests upon 
having dedicated, well-trained professionals executing our front-line 
mission. Our Transportation Security Officers demonstrate exceptional 
skills, professionalism, and diligence in meeting the various demands 
of their jobs while serving the traveling public on a daily basis. 
However, as travel levels continue to increase and outpace predictions, 
TSA's workforce is challenged to meet the demands of passenger growth. 
Meeting these demands comes at the cost of the training and personal 
leave requirements of our officers. Those trade-offs ultimately impact 
morale, turnover, and performance. The additional 717 screeners 
included in the fiscal year 2019 budget request will help address the 
current shortfall.
                      summer travel season efforts
    TSA recently completed a record-breaking spring travel season. From 
March 15 to April 15, 2018, TSA screened more than 72 million 
passengers and crew members and nearly 45 million checked bags Nation-
wide. This represents an increase of 5 percent over the spring of 2017. 
We successfully screened more people and bags than any previous Spring 
Break travel period. Ninety-five percent of all passengers waited less 
than 20 minutes at the checkpoint and nearly 93 percent of passengers 
who were in a TSA PreCheck lane waited less than 5 minutes. Notably, 
during this time, TSA was also in the process of completing the Nation-
wide roll-out of enhanced screening procedures for carry-on baggage. 
These new measures, which began at a handful of airports in late summer 
2017 and are now fully rolled out, are part of our effort to raise the 
global baseline for aviation security and to meet evolving threats to 
aviation.
    TSA is now preparing for what promises to be one of the agency's 
busiest summer seasons on record. From the Memorial Day through Labor 
Day holidays, TSA expects to screen more than 243 million passengers 
and crew members, an increase of 4 percent over the summer of 2017. To 
ensure there are sufficient officers available to meet the summer rush, 
TSA conducted several Transportation Security officer hiring events at 
hard-to-hire and high-volume airports, increased advertising and media 
outreach to recruit new hires, and improved the timeliness of the 
hiring and new employee training processes. From a workforce capacity 
perspective, TSA kept pace with attrition and increased our front-line 
workforce by 620 officers since the beginning of the year. Further, we 
plan to bring more than 1,000 additional officers into our ranks before 
the peak of this summer's travel season in July. TSA regularly monitors 
wait times on an on-going basis and is prepared to address challenges 
that may arise at particular airports. Although TSA will still have a 
workforce capacity gap, these hiring efforts, coupled with additional 
overtime resources, will ensure TSA is positioned to effectively meet 
projected screening demands this summer while mitigating wait times.
                           canine deployment
    In addition to ensuring the availability of staff to meet increased 
passenger levels, canines are also an integral part of TSA's checkpoint 
strategy. Passenger Screening Canine (PSC) teams are an essential 
element of effective and efficient checkpoint screening. This summer, 
TSA expects to field an additional 50 operational PSC teams compared to 
July 2017. TSA also augments its PSC teams by providing resources for 
another 675 State and local canine teams, which are used for security 
in airport public areas as well as other modes of transportation. The 
fiscal year 2019 budget request supports 1,047 canine teams, including 
372 PSC teams as well as 675 State and local ones. With passenger 
levels rising, TSA believes that PSC teams are a cost-effective 
resource to meet increasing demands and that growth in this capability 
is important for future years.
                               technology
    Another element of our strategy for improving checkpoint operations 
is through enhancing technology. Presently, TSA is in the process of 
testing Computed Tomography (CT) screening systems for use at domestic 
airport checkpoints. Use of CT at the airport checkpoint will enhance 
the ability for TSOs to examine carry-on baggage, reduce false alarms, 
and improve the detection of prohibited items. The CT program is 
currently on track with developmental and operational testing and we 
expect to have approximately 35 systems deployed at our test labs, in 
our training centers, or at airports over the course of the summer. 
Depending on the timing of appropriations, deployment could begin early 
in calendar year 2019. Similarly, TSA is working to deploy Credential 
Authentication Technology (CAT) units, which are designed to improve 
the travel document checker function at security checkpoints. Forty-two 
of these units are currently being tested in select TSA PreCheck lanes 
at 13 airports across the Nation.
           passenger experience: @asktsa and tsa social media
    TSA recognizes the American public is a key stakeholder in our 
security mission, and that informing passengers ahead of time helps 
prepare them for the screening process and improves the overall 
passenger experience. TSA's social media presence continues to grow and 
has become a valuable customer service tool. For example, our 
internationally-recognized and award-winning Instagram account, which 
has more than 865,000 followers, highlights prohibited items that are 
intercepted at the checkpoint.
    Through the AskTSA on-line platforms, TSA's social care team 
monitors the @AskTSA Twitter and Facebook messenger accounts to address 
passengers inquires in real time, 365 days a year. To date, TSA has 
received and responded to more than 450,000 questions from the 
traveling public via its AskTSA accounts. This includes more than 
110,000 questions on what passengers can bring on planes, more than 
33,000 inquiries on TSA PreCheck including Known Traveler Number 
resolution, and more than 12,000 responses to help passengers with 
disabilities and medical conditions with the security screening 
process. TSA's customer-centric, mobile compliant website, TSA.gov, 
gets more than 7 million views each month. The recently-revised agency 
app, MyTSA, has added features such as TSA PreCheck checkpoint hours, a 
graph predicating how busy airport checkpoints will be based on 
historical data, live assistance with AskTSA, and a searchable database 
of items that can be placed in carry-on and checked baggage. These 
efforts aim to make the traveling process more transparent and easier 
to navigate for the traveling public.
            risk-based passenger screening and tsa precheck
    In 2011, TSA launched a risk-based approach to vetting and 
passenger security screening. Instead of employing a one-size-fits-all 
approach to passenger security screening, the agency's design is to 
spend less time with individuals we know more about while focusing a 
greater proportion of our security resources on unknown passengers. TSA 
PreCheck is a voluntary, expedited security screening program 
connecting low-risk travelers departing from the United States with 
smarter security and a better air travel experience. TSA PreCheck is 
one of a number of Department of Homeland Security Trusted Traveler 
programs that allow enrolled individuals to use expedited lanes when 
crossing international borders, and at the airport.
    TSA plans to dedicate our TSA PreCheck lanes at airports to pre-
vetted and enrolled Trusted Traveler passengers. TSA is taking a multi-
faceted approach to achieve that goal. First, the agency is focusing on 
expanding vetting and notification capabilities. Second, TSA is working 
to implement technology enhancements to improve credential 
authentication and passenger verification. Finally, we are examining 
our screening measures and looking at other innovative ways to quickly 
differentiate passengers based on their level of risk.
    TSA PreCheck marketing efforts are designed to increase traveler 
awareness and encourage enrollments in the program. By increasing the 
percentage of travelers that have been vetted and are known to be of 
lesser risk, TSA will be better-positioned to provide those individuals 
with an expedited checkpoint experience while also applying a greater 
portion of its resources to those passengers that require a greater 
level of screening at the checkpoint.
    TSA has and continues to engage industry to identify private-sector 
capabilities to improve traveler identity verification and increase the 
public's enrollment access to TSA PreCheck. To increase the number of 
Trusted Travelers, TSA has engaged in a marketing program for TSA 
PreCheck consisting of a paid advertising campaign, as well as on-going 
outreach, marketing, and communications initiatives with stakeholders 
from industry and our other TSA PreCheck eligible trusted traveler, 
pre-vetted programs. Many of our airline stakeholders and their 
associated credit card partners offer incentives for members to join 
TSA PreCheck.
    Currently, there are more than 13 million travelers in DHS Trusted 
Travel Programs, including 6.4 million enrolled in TSA PreCheck. Since 
2014, we have seen the Trusted Traveler population increase by 500 
percent. There has also been substantial increase in TSA PreCheck as 
well. As you may know, the program launched with two airlines in four 
airports. Today, more than 50 airlines participate in the program and 
TSA has implemented TSA PreCheck lanes at more than 200 airports.
    We thank the Members of this subcommittee who have demonstrated an 
interest in helping TSA achieve its goal of making our security 
measures more effective and adaptable. We are constantly looking at 
innovations to facilitate enrollments and screening to achieve more 
effective utilization of TSA PreCheck lane operations.
                               conclusion
    TSA is remains dedicated to securing the Nation's transportation 
systems from terrorist attacks. We are focused on improving 
transportation security through the development and implementation of 
intelligence-driven, risk-based policies and plans. I appreciate the 
subcommittee's support of TSA's mission. Thank you for the opportunity 
to appear before you today. I look forward to answering your questions.

    Mr. Katko. Thank you very much, Mr. LaJoye, and I 
appreciate you staying under the time limit. That is not always 
the way, so thank you very much.
    No pressure on you, Mr. Russell.
    All right, our second witness is Mr. Bill Russell, the 
acting director of the U.S. Government Accountability Office's 
Homeland Security and Justice team. In his current role, Mr. 
Russell is responsible for leading a portfolio of work on 
transportation security issues. This includes assessing 
progress the Federal Government has made in effectively 
allocating and balancing security resources across 
transportation modes while facilitating the legitimate flow of 
commerce and people.
    Since joining GAO in 2002, Mr. Russell has been the 
recipient of several GAO-wide awards, including two Meritorious 
Service Awards and two Results Through Teamwork Awards. 
Congratulations on your--your awards.
    You are now recognized for 5 minutes for an opening 
statement.

    STATEMENT OF WILLIAM RUSSELL, ACTING DIRECTOR, HOMELAND 
   SECURITY AND JUSTICE TEAM, U.S. GOVERNMENT ACCOUNTABILITY 
                             OFFICE

    Mr. Russell. Good morning, Chairman Katko, Ranking Member 
Watson Coleman, and Members of the subcommittee. Thank you for 
the opportunity to testify today on TSA's PreCheck program and 
airport wait times. My statements are primarily based on our 
February 2018 report.
    Forty-three thousand transportation security officers, 
TSOs, across 440 airports screen 2 million or more passengers 
and their baggage each day. TSA's primary responsibility is to 
ensure security, but it also strives to balance safety with the 
efficient flow of passengers through the screening process.
    An inherent challenge in TSA's mission is taking the time 
necessary to do the job right and moving passengers through as 
quickly as possible. With an increasing number of travelers and 
the busy 2018 travel season underway, it is critical that TSA 
get this balance right.
    The TSA standard for wait times is under 30 minutes for 
standard screening, and under 15 minutes for PreCheck or 
expedited screening. Our review of airport passenger wait time 
data from 2015 to 2017 showed that TSA met those standards 99 
percent of the time. We found that TSA collected data to 
monitor passenger wait times and throughput, and had tools to 
respond to increases when necessary.
    In particular, TSA's Airport Operations Center, AOC, 
monitored wait times and passenger throughput hourly from 28 
airports that make up the majority of passenger throughput 
Nation-wide. Our analysis showed the value of TSA collecting 
and monitoring near-real-time data. For example, prior to this 
approach during the spring of 2016, we found that long 
screening queues in excess of 30 minutes occurred across those 
28 busy airports. The AOC was created during that period in May 
2016 to help address wait time issues.
    Since then, each operational hour, wait times are collected 
at all open lanes at the 28 airports and reported hourly to the 
AOC. The AOC also holds a daily conference call with key 
stakeholders such as airlines and airport officials to help 
identify challenges. The net result is that wait times averaged 
below 30 minutes at the 28 airports from June 2016 to May 2017.
    To better manage long lines, we found Federal security 
directors at airports noted they can use a number of tools, 
such as overtime and moving TSOs from less busy lanes to 
congested ones.
    Effective use of expedited screening, or PreCheck, can also 
impact wait times. Since PreCheck passengers are considered 
low-risk and require less screening, increases in PreCheck 
enrollment allow TSA to screen passengers more quickly.
    Over 2014 and 2015, however, GAO and the DHS OIG reported 
concerns about the security effectiveness with the PreCheck 
process called Managed Inclusion, in which standard screening 
passengers are randomly selected for PreCheck.
    In response, in November 2015, TSA modified its risk 
assessment rolls for PreCheck, which reduce the number of 
passengers automatically designated as low-risk. TSA also 
significantly reduced its use of Managed Inclusion. Currently, 
TSA only uses Managed Inclusion at airports where passenger 
screening K-9 teams are available, but has otherwise 
discontinued it.
    TSA also recently implemented our 2015 recommendation to 
ensure an effectiveness study for the remaining Managed 
Inclusion process known as K-9 expedited screening followed 
best practices for its design and reliability.
    In conclusion, TSA has taken positive steps to ensure it 
has near-real-time passenger wait time data to quickly identify 
and address long queues at the security checkpoints, and has 
taken action to improve the security effectiveness of its 
expedited screening program. But continued attention is needed 
to these issues in order to avoid problems encountered in 2016 
and to successfully manage the summer travel season.
    Chairman Katko, Ranking Member Watson Coleman, this 
concludes my prepared statement and I look forward to your 
questions.
    [The prepared statement of Mr. Russell follows:]
                 Prepared Statement of William Russell
                              May 17, 2018
    Chairman Katko, Ranking Member Watson Coleman, and Members of the 
subcommittee: I am pleased to be here today to discuss the 
Transportation Security Administration's (TSA) efforts to monitor 
passenger wait times and the number of passengers that are screened at 
each airport checkpoint, known as throughput, at airports throughout 
the United States. As you know, the Department of Homeland Security's 
TSA is responsible for protecting the Nation's transportation systems 
while also ensuring the free movement of people and commerce. TSA 
employs about 43,000 Transportation Security Officers (TSOs) who screen 
over 2 million passengers and their accessible and checked baggage each 
day at nearly 440 airports across the United States.\1\ In the spring 
of 2016, unusually long screening checkpoint lines at certain major 
U.S. airports raised questions about TSA's process for allocating TSOs 
to airports and managing passenger wait times.
---------------------------------------------------------------------------
    \1\ TSOs are screening personnel employed by TSA. In this 
testimony, references to TSOs do not include screening personnel 
employed by qualified private-sector companies under contract with TSA 
to perform screening operations at the 21 airports participating in 
TSA's Screening Partnership Program (SPP). See 49 U.S.C.  44920. TSA 
oversees the performance of screening operations at SPP airports, and 
the screening personnel at SPP airports must adhere to the same 
screening requirements applicable to TSOs.
---------------------------------------------------------------------------
    My testimony today addresses: (1) How TSA collects and monitors 
passenger wait time and throughput data and (2) tools TSA uses to 
respond to increases in passenger wait times. This statement is based 
on selected findings from our February 2018 report on staffing 
allocation and managing wait times.\2\ To perform the work from our 
previous report, we analyzed TSA documentation, reports, and data on 
wait times and passenger throughput from January 2015 through May 2017 
for 28 airports that, according to TSA headquarters officials, 
represent the majority of passenger throughput Nation-wide or are 
operationally significant. We also interviewed headquarters officials 
responsible for overseeing TSA's collection and use of wait time and 
throughput data as well as Federal Security Directors (FSD) and their 
designees at eight selected airports to determine the tools they use to 
respond to increases in passenger wait times and throughput.\3\ Further 
detail on the scope and methodology for the previously-issued report is 
available within the published product. The work upon which this 
testimony is based was conducted in accordance with generally accepted 
Government auditing standards. Those standards require that we plan and 
perform the audit to obtain sufficient, appropriate evidence to provide 
a reasonable basis for our findings and conclusions based on our audit 
objectives. We believe that the evidence obtained provides a reasonable 
basis for our findings and conclusions based on our audit objectives.
---------------------------------------------------------------------------
    \2\ GAO, Aviation Security: TSA Uses Current Assumptions and 
Airport-Specific Data for Its Staffing Process and Monitors Passenger 
Wait Times Using Daily Operations Data, GAO-18-236 (Washington, DC: 
Feb. 1, 2018).
    \3\ FSDs are TSA officials responsible for overseeing TSA security 
activities, including passenger and checked baggage screening, at one 
or more commercial airports. See 49 U.S.C.  44933. Some FSDs oversee 
more than one airport within a geographic area; thus, not all FSDs are 
located at the airports they oversee. Airport operators have direct 
responsibility for implementing security requirements in accordance 
with their TSA-approved airport security programs. Airport security 
programs generally cover the day-to-day aviation operations and 
implement security requirements for which airports are responsible. See 
generally 49 C.F.R. pt. 1542.
---------------------------------------------------------------------------
                               background
TSA Processes for Allocating TSOs Across Airports
    TSA allocates TSOs to airports using its Resource Allocation Plan, 
which is intended to provide each airport with the optimum number of 
TSOs needed to screen passengers for threats to aviation security, such 
as prohibited and other potentially dangerous items.\4\ To implement 
passenger screening and pursue efficient operations, in addition to 
relying on TSOs, TSA works with officials from airlines and airports, 
as well as officials from associations that represent airlines and 
airports. At airports, FSDs and their designees work with individual 
airport operators and airlines to, among other things, adjust TSA 
resources (i.e., TSOs and screening assets such as metal detectors) in 
response to increases in passenger throughput at each checkpoint, and 
monitor passenger wait times at checkpoints.
---------------------------------------------------------------------------
    \4\ According to TSA headquarters officials, TSA identifies the 
number of TSOs for the Resource Allocation Plan based on the number of 
positions authorized by the agency's budget, which serves as a 
constraint on the number of TSOs that can be staffed to airports.
---------------------------------------------------------------------------
    At TSA headquarters, the Office of Security Operations (OSO) has 
primary responsibility for operation of the Resource Allocation Plan 
and allocation of TSOs across airports. To allocate staff to the nearly 
440 TSA-regulated airports in the United States, OSO is to use a 
combination of computer-based modeling and line-item adjustments based 
on airport-specific information.\5\ First, the agency is to work with a 
contractor to evaluate the assumptions--such as rates of expedited 
screening \6\--used by the computer-based staffing allocation model to 
determine the optimal number of TSOs at each airport based on airport 
size and configuration, flight schedules, and the time it takes to 
perform checkpoint and baggage screening tasks.\7\ Second, after the 
model has determined how many TSOs are required for each airport, 
headquarters-level staff are to make line item adjustments to account 
for factors such as differences in staff availability and training 
needs that affect each airport.
---------------------------------------------------------------------------
    \5\ According to TSA headquarters officials, the agency uses the 
Resource Allocation Plan to determine how many staff hours are required 
to adequately staff baggage and passenger screening operations at the 
21 SPP airports in the United States operated by private-sector 
companies. TSA allocates staff hours to SPP airports based on what TSA 
anticipates the cost would be to maintain a staff of TSOs at those 
airports. The private companies that operate the SPP airports control 
the hiring, scheduling, and allocation of staff at these airports, 
although they are required to follow the same TSA standard operating 
procedures applicable to TSOs and other TSA employees.
    \6\ Expedited screening is a process that TSA uses to assess a 
passenger's risk to aviation security prior to the passenger arriving 
at an airport checkpoint.
    \7\ TSA's computer-based staffing model is a proprietary software 
application that uses simulations to determine each airport's work 
requirement based on the airport's unique operating characteristics, 
such as layout, equipment, and flight data. The software simulates 
passenger and baggage screening operations to produce required staffing 
levels.
---------------------------------------------------------------------------
    In 2007, we reviewed the Resource Allocation Plan (referred to as 
the Staffing Allocation Model at that time) and recommended, among 
other things, that TSA establish a mechanism to ensure periodic 
assessment of the assumptions, such as passenger and checked baggage 
screening rates, underlying the plan. TSA agreed with the 
recommendation, and in December 2007 developed and implemented a plan 
to periodically assess the plan's assumptions.\8\
---------------------------------------------------------------------------
    \8\ GAO, Aviation Security, TSA's Staffing Allocation Model Is 
Useful for Allocating Staff Among Airports, but Its Assumptions Should 
Be Systematically Reassessed, GAO-07-299 (Washington, DC: Feb. 28, 
2007).
---------------------------------------------------------------------------
TSA Processes for Collecting Wait Time and Throughput Data at Airports
    At each airport, TSA is to collect throughput data on the number of 
passengers screened under both expedited and standard screening and 
monitor passenger wait times at screening checkpoints. TSA airport 
officials are to submit passenger throughput and wait time data on a 
daily basis to OSO's Performance Management Division at TSA 
headquarters, which compiles the data through the Performance 
Measurement Information System, TSA's web-based data collection system. 
TSA required FSDs and their designees to collect actual wait times from 
2002 through 2007 and beginning again in July 2014. From 2008 through 
June 2014, TSA required that FSDs collect data on wait time ranges, 
such as between 20 to 29 minutes or greater than 30 minutes.
TSA Information-Sharing Efforts with Stakeholders
    In February 2018, we reported that TSA headquarters officials have 
taken steps intended to improve information sharing with stakeholders--
officials from airlines and airports, as well as officials from 
associations that represent airlines and airports--about staffing and 
related screening procedures at airports. For example, we reported that 
TSA holds daily conference calls with stakeholders at selected airports 
intended to ensure timely communication and to help identify and 
address challenges in airport operations such as increases in passenger 
wait times. Additionally, we reported that TSA conducted a series of 
presentations and meetings to discuss the Resource Allocation Plan, 
security enhancements at airports, and airport screening processes, 
among other things.
  tsa uses passenger wait time and throughput data to monitor airport 
                      operations on a daily basis
    In February 2018, we reported that TSA collects passenger wait time 
and throughput data and uses those data to monitor daily operations at 
airports. TSA's Operations Directive (directive), Reporting Customer 
Throughput and Wait Times, provides instructions for collecting and 
reporting wait time and passenger throughput data for TSA screening 
lanes.\9\ Regarding wait time data, according to the directive, FSDs or 
their designees at all Category X, I, and II airports \10\ must measure 
wait times every operational hour in all TSA expedited and standard 
screening lanes. The directive requires wait times to be measured in 
actual time, using a verifiable system such as wait time cards, closed 
circuit television monitoring, or another confirmable method. The 
directive indicates that wait times should be measured from the end of 
the line in which passengers are waiting to the walk-through metal 
detector or advanced imaging technology units.
---------------------------------------------------------------------------
    \9\ TSA, Operations Directive, OD-400-50-1-5F: Reporting Customer 
Throughput and Wait Times (December 1, 2016). The wait time and 
throughput reporting requirements also apply to the 21 airports 
participating in TSA's SPP.
    \10\ TSA classifies airports into one of five security risk 
categories (X, I, II, III, IV) based on various factors, such as the 
total number of takeoffs and landings annually, and other special 
security considerations. In general, Category X airports have the 
largest number of passenger boardings and Category IV airports have the 
smallest.
---------------------------------------------------------------------------
    According to TSA officials at that time, at the beginning of each 
hour, wait time cards are handed to passengers at the end of the 
checkpoint line and are collected when a passenger reaches the metal 
detector or imaging unit. Closed-circuit television is monitored from a 
location other than the checkpoint, such as at the airport's 
coordination center. According to TSA headquarters officials, TSA does 
not require FSDs or their designees to collect wait times from a 
statistical sample of passengers throughout the hour, but rather 
requires that one wait time is collected for every operational hour in 
all screening lanes. If more than one wait time is collected during the 
hour, the directive indicates that the maximum wait time should be 
reported. TSA officials at airports we visited for our February 2018 
report stated that TSOs return completed wait time cards to 
supervisors, who then enter the information into a shared spreadsheet 
and eventually into the Performance Measurement Information System. 
Each hour's reported wait time is then applied to all of a lane's 
throughput for that given hour. FSDs or their designees at Category III 
and IV airports may estimate wait times initially, but the directive 
requires them to measure actual wait times when wait times are 
estimated at 10 minutes or greater.
    The directive also requires FSDs or their designees to collect 
passenger throughput data directly from the walk-through metal 
detectors and advanced imaging technology units. According to TSA 
headquarters officials, the machines have sensors that collect the 
number of passengers who pass through each hour, and TSOs retrieve the 
data directly from the units. All airports regardless of category are 
required to enter their wait time and throughput data daily into the 
information system no later than 3:30 AM Eastern Time of the next 
calendar day so that the data can be included in the morning's Daily 
Leadership Report (discussed in more detail below).
    To monitor operations for all airports, TSA compiles a daily report 
utilizing a variety of data points from the information system, 
including wait time and throughput data.\11\ The Office of Security 
Operations' Performance Management Division disseminates the Daily 
Leadership Report to TSA officials, including regional directors and 
FSDs and their designees every morning detailing the previous day's 
wait times and throughput figures, among other data points. The 
Performance Management Division includes a quality assurance addendum 
with each Daily Leadership Report, indicating missing or incorrect 
data, to include wait time and throughput data, and TSA has procedures 
in place intended to ensure officials at the airports correct the data 
in the Performance Measurement Information System within 2 weeks.
---------------------------------------------------------------------------
    \11\ As mentioned above, Category III and IV airports only collect 
wait time data when they estimate the wait times to be longer than 10 
minutes, so although the Daily Leadership Report will list Category III 
and IV airports, there may be days when no wait time data are reported 
for these airports.
---------------------------------------------------------------------------
    In addition to the Daily Leadership Report, we reported that TSA 
utilizes wait time and throughput data to monitor airport operations at 
28 airports in near-real time. In May 2016, TSA established the Airport 
Operations Center partly in response to the long screening checkpoint 
lines in the spring of 2016 at certain airports. The center conducts 
near real-time monitoring of the operations of 28 airports that, 
according to TSA headquarters officials, represent the majority of 
passenger throughput Nation-wide or are operationally significant.\12\ 
TSA requires the 28 airports monitored by the center to enter passenger 
wait time data and throughput data hourly (whereas the remaining 
airports are only required to submit data once daily, by 3:30 AM 
Eastern Time, as described above) so that officials can monitor the 
operations in near-real time. In addition, TSA officials at airports 
are required to report to the center when an event occurs--such as 
equipment malfunctions, weather-related events, or unusually high 
passenger throughput--that affects airport screening operations and 
results in wait times that are greater than TSA's standards of 30 
minutes in standard screening lanes or greater than 15 minutes in 
expedited screening lanes.\13\
---------------------------------------------------------------------------
    \12\ When TSA established this center in May 2016, they referred to 
it as the Incident Command Center. TSA changed the name to the Airport 
Operations Center in October 2016.
    \13\ In 2007, we reviewed TSA's Staffing Allocation Model and 
reported that TSA had a 10-minute wait time goal for passenger 
screening (GAO, Aviation Security: TSA's Staffing Allocation Model Is 
Useful for Allocating Staff Among Airports, but Its Assumptions Should 
Be Systematically Reassessed, GAO-07-299 (Washington, DC: February 28, 
2007)). According to TSA headquarters officials we interviewed for our 
February 2018 report and the TSA administrator's October 2015 testimony 
before the House Committee on Homeland Security, Subcommittee on 
Transportation Security, TSA began prioritizing security effectiveness 
rather than speed in 2015, in response to concerns regarding security 
effectiveness following the completion of the September 2015 DHS Office 
of Inspector General Report on covert testing, which used undercover 
methods to test TSA operations.
---------------------------------------------------------------------------
    If an airport is undergoing a period of prolonged wait times, we 
found that officials at the Airport Operations Center reported 
coordinating with the Regional Director and the FSD to assist in 
deploying resources. For example, over the course of the summer of 
2016, after certain airports experienced long wait times in the spring 
of 2016 as confirmed by our analysis, the center assisted in deploying 
additional passenger screening canines and TSOs to those airports that 
experienced longer wait times. The center disseminates a morning and 
evening situational report to TSA airport-level officials and airport 
stakeholders summarizing Nation-wide wait times, highlighting wait 
times at the top airports and any hot spots (unexpected passenger 
volume or other operational challenges) that may have occurred since 
the most recent report was issued. In addition to the near-real time 
monitoring of 28 airports, the center also monitors operations at all 
other airports and disseminates information to airports and 
stakeholders as needed.
    For our February 2018 report, to determine the extent to which TSA 
exceeded its wait time standards, we analyzed wait time data for the 28 
airports monitored by the Airport Operations Center for the period of 
January 2015 through May 2017 for both standard and expedited 
screening. Our analysis showed that TSA met its wait time standard of 
less than 30 minutes in standard screening at the 28 airports 99.3 
percent of the time for the period of January 2015 through May 2017. 
For expedited screening for the same time period at the same airports, 
we found that 100 percent of the time passengers were reported to have 
waited 19 minutes or less.\14\
---------------------------------------------------------------------------
    \14\ Although the TSA standard for expedited screening is 15 
minutes, TSA does not routinely report the data this way. For expedited 
screening, TSA provided wait time data in increments of 0-4 minutes; 5-
9 minutes; 10-19 minutes; and 20 minutes or more and we analyzed the 
data in these same increments. These are the similar increments that 
TSA uses to prepare its Daily Leadership Report.
---------------------------------------------------------------------------
    Additionally, our analysis confirmed that the percentage of 
passengers in standard screening who waited over 30 minutes increased 
in 2016 during the months of March, April, and May as compared to 2015 
at all 28 airports. Our analysis also confirmed that reported wait 
times increased in the spring of 2016 at selected airports, as 
mentioned in the news media. For example, in May 2016, approximately 22 
percent of passengers at Chicago O'Hare International airport and 26 
percent of passengers at Chicago Midway International airport waited 
over 30 minutes in standard screening as opposed to zero percent for 
both airports in May 2015, which accounted for the longest wait times 
in the spring of 2016. These two airports were part of the 28 airports 
for which we analyzed wait time data for the period of January 2015 
through May 2017.
 tsa airport officials reported using a variety of tools to respond to 
            increases in passenger wait times and throughput
    In February 2018, we reported that FSDs and their staff at the 
airports we visited identified a variety of tools that they utilize to 
respond to increases in passenger wait times and/or throughput.
  <bullet> TSOs from the National Deployment Force--teams of additional 
        TSOs--are available for deployment to airports to support 
        screening operations during major events and seasonal increases 
        in passengers.\15\ For example, TSA officials at one airport we 
        visited received National Deployment Force officers during busy 
        holiday seasons and officials at another airport received 
        officers during the increase in wait times in the spring and 
        summer of 2016.
---------------------------------------------------------------------------
    \15\ TSA's National Deployment Force officers support airport 
screening operations during emergencies, seasonal demands, severe 
weather conditions, or increased passenger activity requiring 
additional screening personnel above those normally available.
---------------------------------------------------------------------------
  <bullet> TSA officials at selected airports used passenger screening 
        canines to expedite the screening process and support screening 
        operations during increased passenger throughput and wait time 
        periods.\16\ For example, TSA officials at one airport we 
        visited emphasized the importance of passenger screening 
        canines as a useful tool to minimize wait times and meet 
        passenger screening demands at times when throughput is high. 
        Officials at another airport we visited relied on these canines 
        in busy terminals during peak periods. According to officials 
        at two of the airports we visited, the use of passenger 
        screening canines helped them to reduce wait times due to 
        increased passenger volumes in the spring and summer of 2016.
---------------------------------------------------------------------------
    \16\ Passenger screening canine teams consist of a canine trained 
to detect explosives on passengers and a handler. Airports at which 
passenger screening canines are used can achieve a reduction in 
passenger wait times through broader use of expedited screening. 
Passenger screening canines are allocated to airports through a risk-
based model, with airports with higher passenger throughput rates, 
among other factors, receiving more canines.
---------------------------------------------------------------------------
  <bullet> TSA officials at selected airports also utilize part-time 
        TSOs and overtime hours to accommodate increases in passenger 
        throughput and wait times. For example, according to officials 
        at all 8 of the airports we visited, they used overtime during 
        peak travel times, such as holiday travel seasons, and 
        officials usually planned the use of overtime in advance. 
        Additionally, TSA officials at four of the airports we visited 
        told us they used part-time TSOs to help manage peak throughput 
        times throughout the day.
  <bullet> According to TSA officials at two of the airports we 
        visited, they moved TSOs between checkpoints to accommodate 
        increases in passenger throughput at certain checkpoints and to 
        expedite screening operations. For example, TSA officials at 
        one airport we visited have a team of TSOs that terminal 
        managers can request on short notice. Officials at the other 
        airport estimated that they move TSOs between terminals about 
        40 times per day.
    Chairman Katko, Ranking Member Watson Coleman, and Members of the 
subcommittee, this concludes my prepared statement. I would be pleased 
to respond to any questions that you may have at this time.

    Mr. Katko. Mr. Russell, you beat Mr. LaJoye. You guys are 
on a roll today. Thank you very much. I appreciate your--your 
comments, and look forward to your testimony.
    The Chair now recognizes myself for 5 minutes of questions, 
and I'll pose this to both of you, because I'd appreciate both 
of your takes on this. I'd like to know--well, a couple things. 
First of all, concerns that I have--and I have articulated 
these concerns, and they are nothing new, but two things: One 
is the goal has always been to get PreCheck around 20 million 
people, and it really seems to have slowed down. We were at 1 
million several years ago and bumped up pretty quickly, and 
then it has kind of plateaued off to some extent. It seems like 
it is going a little bit better.
    I know in the Syracuse Airport, once we got a kiosk there, 
we went from a very small percentage on PreCheck to more than 
50 percent of the travelers on PreCheck. So I'd like to hear 
both your of your takes on PreCheck. But I also would like to 
hear both of your takes on PreCheck as a--as a form of what you 
just mentioned, Mr. Russell, Managed Inclusion, which we made 
emphatically clear last Congress, that shouldn't be taking 
place anymore, and it is still taking place at TSA.
    The concerns we had back then about Managed Inclusion was 
that they are not--it is not risk-based security. It is just 
moving people through. Now, we understand--and that is what the 
genesis of this hearing is today--is to have a discussion 
about, are you ready for this crush coming this summer? But as 
a backdrop to that, I don't want it to be an over-reliance on 
Managed Inclusion-type practices, which we are going to end by 
law, because that is the only way I think we are going to be 
able to stop you guys from doing it.
    So I--and we are going to set a--we are going to give you a 
time limit in the bill that we get passed that says that after 
this time, no more of this stuff. Because we can't have it. It 
is--it is--it is a security gap in our minds. We are--and we 
have asked you many times not to, and you still do it. So now 
we are going to tell you by law you can't.
    So with that being as the backdrop, I would like to hear 
about that, but I would also like to hear about your 
interactions with respect to industry. So there is a lot in 
there. So let us hear about PreCheck and--and Managed 
Inclusion, and then let us hear about your interactions with 
industry about anticipating some of the wait time issues that 
might--might materialize this summer.
    Mr. LaJoye. So Mr. Chairman, one of the things we're--we've 
acknowledged is that currently we have about 2 out of 10 
passengers enrolled in PreCheck, and we really think that needs 
to be closer to about 4 out of 10.
    Now, that may seem like a fairly modest goal, but we also 
understand that, because of the frequency by which--these are 
business travelers and leisure enthusiasts--they represent far 
and away the majority of all the passengers. We still think--we 
are still convinced there is about 66 percent of these people 
still aren't enrolled in these.
    We have really focused on a couple of different key areas. 
The first is just the fantastic partnership we have with 
industry. If you get on an airplane today, you are going to see 
PreCheck marketing materials available in in-flight 
entertainment systems, in in-flight magazines, you will see our 
bookmarks in the seat backs, as well as a number of companies 
that are making this part of the rewards programs, for--for 
banks, and, et cetera, credit card companies.
    Recently, our--our vendor has announced that 50 Staples 
locations throughout the country, they will have TSA enrollment 
centers present.
    We also understand that one of the biggest barriers to 
enrollment is simply going to where the enrollment center is. 
We have 350 enrollment centers around the country, 41 of which 
are in airports. I think that is where the partnership we have 
with CBP is so critically important, in both--at the very 
senior levels of both agencies, we are looking very 
aggressively at where we can look at combining both enrollment 
centers as well as involve--combining a common portal where, 
you know, somebody can go to one on-line system and then sign 
up for either TSA PreCheck or--or Global Entry.
    So we are thinking, in total, these things are going to 
have a positive impact in growing the PreCheck populations.
    Mr. Katko. If Syracuse can maybe be used as an example, 
like I said, once you put it--and they used to be up in Oswego, 
which is 45 minutes north. You had to drive up on crappy roads 
just to get to the Border Patrol station to sign up for 
PreCheck. When they got it in the airport, it went up to more 
than 50 percent of the passengers. I don't understand why you 
don't just put it at airports.
    Mr. LaJoye. Again, I think that is--is something that we 
agree, we are looking very closely at. I think both TSA and CBP 
can realize the efficiencies in this as well as making the 
process much more seamless for the traveling public. That is 
absolutely something we are endeavoring toward.
    Mr. Katko. OK, and last, just quickly--then I want to hear 
from Mr. Russell.
    What have you done to interact with the private sector to 
anticipate wait times this summer?
    Mr. LaJoye. Well--yes. So, I mean, any success we are now 
having is because of partnerships with the industry. Just the 
sophistication we see in our models is because we have near-
constant communication with the airlines, we get their volume 
forecasts in advance of the summer, I was just last week 
meeting with a number of the associations as well as the 
airlines. Over the next 2 weeks, I have got meetings planned 
with all the major air--air carriers to go over their hub 
operations, make sure that we absolutely have the very best 
plan, you know, given some of the schedules that they are 
seeing.
    So very intense focus on working directly with both the 
associations, the airports, and the air carriers.
    Mr. Katko. Yes, it is critical, because I think--and 
Memorial Day weekend is right around the corner.
    Mr. LaJoye. Yes, sir.
    Mr. Katko. I know that because I have about 15 parades that 
weekend. But from your standpoint, it is a high travel time, so 
I have to--I hope you get with them.
    So Mr. Russell, please, your response.
    Mr. Russell. Certainly. Just to pick up on the coordination 
with industry stakeholders--that is one thing we saw in our 
recent report that--especially the daily conference calls that 
are held now between some of those stakeholders and the airport 
operations center. It is a chance to surface challenges that 
may be emerging and help to address those as we receive 
positive feedback, both from the FSTs we talk to as well as 
some of the key industry stakeholders.
    Transitioning to PreCheck, certainly going through the 
known enrollment--or the Known Travelers and increasing the 
enrollment process is--is the key. Those are the Trusted 
Travelers that have had the most vetting, so the closer the TSA 
can get to that 25 million goal by 2020, the better.
    Mr. Katko. Is--is that achievable? I mean, the--it would be 
awesome if they did it, but is that really realistic?
    Mr. Russell. When we last calculated the numbers back in 
December 2018, it--it--it seemed it was about a--1.9 million 
applicants or enrollees, and then when you counted the Trusted 
Traveler groups, that brought it up to about 8.8 million. So 
that has been an on-going challenge, to go from that level up 
to the--the 25 million target.
    Mr. Katko. So what do you think needs to be done?
    Mr. Russell. We haven't looked specifically at that issue, 
but--but certainly, whatever you can do to make that process 
easier, and to--to vet and encourage the--the groups, like 
active military, DOD civilians, to take advantage of that 
opportunity, the better.
    Mr. Katko. What--what--what if at--there are 450 airports 
Nation-wide. What if the vast majority of airports added 
kiosks? What do you think that would do?
    Mr. Russell. I--I am not sure. We didn't look specifically 
at that.
    Mr. Katko. I think that would blow the lid off it. I 
think--yes, I think you would get a lot more people signing up. 
It is pretty simple to me.
    All right. Anything else, sir?
    Mr. Russell. Just one thing on the Managed Inclusion. That 
is something--in our past work, we have had concerns as well. 
Our understanding now is that has been limited to passenger 
screening K-9 teams. In our most recent work, the FSTs pointed 
that that was a very effective way to help manage the queues. 
Our recommendation along those lines was basically to do a 
study to look at the security effectiveness of that process, 
and our understanding is TSA has done that.
    Mr. Katko. You know, I fully believe in the--the K-9 
process, and Mr. Rogers told me I had to, but----
    [Laughter.]
    Mr. Katko. No, but I fully believe in it, but I do think 
that when you pay for a service and that service is based on 
risk-based security, that people shouldn't be coming into that 
and--you know, violating that service area, because first of 
all, it is not right. Second of all, far more importantly, from 
a security standpoint, we are diminishing our security.
    So the K-9s serve a great role, but they--you know, they 
should not replace PreCheck, because a K-9 can't go back and do 
a background check on you. They can make sure you are not 
carrying something you shouldn't, but we all know there are 
diversified threats now.
    So have--the whole basis of PreCheck is risk-based security 
and known--knowing the person before the get--get to the--step 
foot at the airport. That is the whole idea of it. We are 
violating that--that whole notion when we just let people go 
through PreCheck lanes under any circumstances, so it has got 
to end. I--I have--pretty sure I have made myself clear on 
that.
    The Chair now recognize the Ranking Member, Ms. Watson 
Coleman, for 5 minutes of questioning.
    Ms. Watson Coleman. Thank you very much. I have three lines 
of questions, actually all addressed to TSA specifically. I am 
going to try to get through them as quickly as possible, so I 
am going to ask you if you could respond as concisely as 
possible.
    The first one is in--in 2016--this has to do with 
increasing the number of people who are enrolled in PreCheck. 
In 2016, TSA withdrew a solicitation for in--for the industry 
to propose new ways to enroll passengers in PreCheck, citing 
cybersecurity concerns. Now I heard what you said about some of 
the increased activity that you have had with industry, but I 
would like to know, does TSA plan to issue a new solicitation 
specifically on this issue? If so, when? How does TSA plan to 
increase enrollments and participation in PreCheck?
    Mr. LaJoye. So, ma'am, with respect to the RFP, we did 
cancel the TSA expansion RFP back in--citing the concerns, as 
you--as you pointed out. That has been replaced by the UES, 
which is our universal enrollment system.
    Ms. Watson Coleman. Your universal who?
    Mr. LaJoye. Universal--universal enrollment system. So it 
would be--it would be across all of our vetting, with TSA 
PreCheck, Hazard--you know, HME, as well as TWIC. That 
solicitation period is over. We are in sort-of the evaluating 
these things, and we hope to award this this fall.
    Ms. Watson Coleman. OK. You have any idea when you all are 
going to be making a decision as to where to go on this?
    Mr. LaJoye. This fall, ma'am.
    Ms. Watson Coleman. This fall. I am sorry, I didn't hear 
you. OK, thank you.
    So taking you back to the New York Times article about the 
spokes--this--some--some kind of checklist, that you, or watch 
list--secret watch list that you all are supposed to have. 
Could you please tell me more about the list, including how 
many people are currently on it and what security purpose that 
it serves? Can you please provide me with the--with the 
directive that initiated it, and any official communications 
regarding such a list? Does TSA maintain any other watch lists? 
So that is, like, three quick questions.
    Mr. LaJoye. Yes, ma'am. It is, we will provide back for the 
record the actual directives themselves, as they are, you know, 
sensitive security information.
    Ms. Watson Coleman. The directives?
    Mr. LaJoye. Yes, ma'am.
    Ms. Watson Coleman. OK.
    Mr. LaJoye. There are less than 50 people on this list, and 
the intent was--we were seeing an alarming increase in the 
number of assaults against our officers. So this is--there is 
no additional screening being applied to these individuals, it 
simply a means to communicate that a passenger may be arriving 
at the airport, and they have either demonstrated a history of 
assaulting officers or in trying to circumvent some sort of 
security procedure.
    So no additional screening, but it does give the local 
Federal security directors a heads-up that somebody transiting 
the airport has demonstrated a history of--of----
    Ms. Watson Coleman. OK.
    Mr. LaJoye. Unsafe or--you know, behavior that would have 
us concerned.
    Ms. Watson Coleman. All right, so I will look forward to 
the kind of directive which----
    Mr. LaJoye. Yes, ma'am.
    Ms. Watson Coleman. Would help me understand. But did--are 
there any other such secret wait lists that--watch lists that 
you all have?
    Mr. LaJoye. Again, outside of the general list that we have 
with respect to somebody who would be on a no-fly list, but--
but, no----
    Ms. Watson Coleman. OK.
    Mr. LaJoye. Again, this--this list is not about the--this 
is different, because it is a--this applies no additional 
screening to this individual, it is simply an awareness that--
that somebody is going through the checkpoint that has 
demonstrated concerning--you know, assaultive behavior in the 
past to our officers.
    Ms. Watson Coleman. So it is like you are prepared.
    Mr. LaJoye. Yes, ma'am.
    Ms. Watson Coleman. OK. I am--I am really interested in 
what resources that you don't have that you may need. 
Particularly, do you think that there is a need for additional 
officers to be able to respond to what is going to be this 
spike in travel? If so, how many? Well, let us deal with that 
first.
    Mr. LaJoye. Well, ma'am, I think our level of 
sophistication in the model as has been described has allowed 
us to really leverage resources that we have. So this summer, 
we really measure the peak from mid-July to mid-July. So if you 
back from our peak from last summer, we have fully 1,600 to 
1,800 more TSOs than we did just last summer, in addition to 50 
more passenger-screening K-9s.
    We have increased overtime use by almost 5 percent, so we 
really think that we are in the best position we have ever been 
in response to what is to be a 4 percent growth from last year.
    Ms. Watson Coleman. So then you don't think that there is 
any lack of human personnel that you need----
    Mr. LaJoye. No----
    Ms. Watson Coleman. In addition to what you already have?
    Mr. LaJoye. No, ma'am, I honestly think that, you know, 
given what we put in place for the summer and the partnership 
with the airlines and airports that we are as prepared as we 
have ever been to meet the demands. If you go back to our 
spring break, the last holiday season, in addition to last 
summer, we have really, you know, limited any sort of impact to 
the airports.
    Ms. Watson Coleman. So, kind-of last question with regard 
to this. How is your retention rate with--with officers? How is 
the morale, and what is being done to sort-of deal with the 
fact that these individuals are sort-of outside of the 
mainstream of how they can move through the system and move up? 
Are we doing anything about it?
    Mr. LaJoye. Well, thank you for that question. Again, the 
morale of our work force is something that the administrator, 
all the leadership at TSA pay, you know, very close attention 
to. Having been out there in the field, I understand full well, 
you know, the importance of the job that they do.
    So there is a number of things that--that we put in place. 
You know, having heard from the work force, there is a lot of 
stress in how they were getting their annual tests. It was 
sort-of--it was in a room that was wholly different than what 
their day-to-day experiences are, and so the administrator has 
put change--wholesale changes to the annual testing for 
officers. Much more realistic. Their direct leadership chain is 
absolutely involved in this process now.
    In addition, the administrator has laid out a plan, because 
our officers are being asked to operate exceedingly advanced 
technology, in addition to going down to a Federal law 
enforcement training center to receive a lot of additional 
training, and as our officers are acquiring this new training, 
he wants to be able to tie the award money to getting those 
additional skills.
    Last, what we also know from our officers is that they want 
to have confidence that they have the very best technology out 
there to do their job. Which is why, you know, the support from 
the committee as well as the administrator in getting computer 
tomography out there, advance screening lanes; you know, those 
are all important things that give our work force confidence, 
and I think improve morale.
    Ms. Watson Coleman. Absolutely, and it is also important 
that they are being paid fair wages, that they have access to 
benefits and pensions and moving up, and that they have a 
system that allows them to express their concerns and have it 
dealt with. So you are--you are all moving in a right 
direction, got a lot more to do.
    Thank you. I yield back.
    Mr. Katko. Thank you, Mrs. Watson Coleman. The now--the 
Chair now recognizes the gentleman from Alabama, Mr. Rogers, 
for 5 minutes of questioning. Mr. Rogers.
    Mr. Rogers. Thank you, Mr. Chairman. Thank you all for 
being here. I wanted to ask--you talked about have 50 more K-9 
teams this July than you had last July. How many do you need?
    Mr. LaJoye. Again, right now we are authorized 372. We have 
seen about a 180 percent increase in the program over the next 
couple of years, so we have really been doubling down on our 
efforts in--in Lackland to make sure we have adequate training 
and kennel space. It is one of the things we are looking very 
closely at as we start getting new technology, number of 
officers, how we balance that against the--the K-9. That will 
be an important part of what our future budget submissions look 
like.
    Mr. Rogers. Do you have enough to cover the category 
airports?
    Mr. LaJoye. Yes, sir.
    Mr. Rogers. OK. What is next, as far as your expansion of 
that capability?
    Mr. LaJoye. Well, I think right now, sir, I--one of the 
areas we are focusing on is there is third-party K-9 for use in 
the cargo operations, and so we think that shows a lot of 
promise for--we have been working very closely with industry 
with that, and again, looking at the precision of our model to 
how we incorporate how K-9s can fold into that I think is 
really, really important.
    So from my perspective, the next evolution of how we sort-
of staff airports needs to include how we are utilizing K-9s so 
that we can really sit down and make sure we are projecting an 
adequate number of K-9s for future budget years.
    Mr. Rogers. Well, I saw a fiscal year 2019 budget here 
saying that it supports 1,047 K-9 teams, but that includes 
State and locals, which make up two-thirds of that. Tell me how 
you use the State and local teams.
    Mr. LaJoye. Well, they are--they are critically important 
to us. I mean, I--as you pointed out correctly, I mean fully 
two-thirds of those teams are from our State and local 
partners.
    Mr. Rogers. Well they--are they explosive detection K-9s?
    Mr. LaJoye. Yes, sir.
    Mr. Rogers. Are they trained through the Lackland program 
or a similar program?
    Mr. LaJoye. Those are all TSA dogs, sir. So yes, they 
really provide a lot of this, you know, public area, you know, 
patrolling, unattended bags in airports. We work very closely--
issues in cargo warehouses. We really rely heavily on our State 
and local partners with the use of the K-9s to mitigate some of 
the public areas of the airports.
    Mr. Rogers. When--do--have you all made a determination as 
to when you will achieve the threshold of K-9 teams that you 
feel are adequate to meet the National needs?
    Mr. LaJoye. I think this----
    Mr. Rogers. What is that number?
    Mr. LaJoye. I still think that is something we are looking 
at, sir. I--I--again, that is really the next evolution of 
where I think we take our staffing and scheduling models, is 
that--you know, we are still fairly new to the passenger 
screening business, as you pointed out, about one-third of the 
teams are in use in passenger screening.
    So as we mature our model, we really have to understand 
with new technology how many dogs we think we really, really 
need to manage the airports.
    Mr. Rogers. Describe for me exactly what K-9 expedited 
screening is. Is that Managed Inclusion?
    Mr. LaJoye. No, sir.
    Mr. Rogers. How--how does it differ?
    Mr. LaJoye. You know, as described earlier, the Managed 
Inclusion II that was in use, you know, several years ago 
involved the use of the BDOs, and it was very correctly pointed 
out a randomized----
    Our use of the dogs is enhanced screening. Again, we 
believe very well that the dogs are very effective and--as a 
deterrent, as well as for sniffing for explosives. So we--we 
are very confident that when the dogs are in use, that 
substantially mitigated many of the concerns that we have, and 
we feel that we can afford those passengers, all of whom have 
been screened for explosives, a more expedited process of going 
through the checkpoint.
    However, we view dogs as an additional layer of security, 
not a replacement for anything.
    Mr. Rogers. Well--well--I want to ask you--you said ``those 
passengers.'' You mean those passengers who are not PreCheck or 
in another Trusted Traveler Program?
    Mr. LaJoye. The passengers that are screened by the K-9s, 
sir.
    Mr. Rogers. Are not part of the Trusted Traveler system?
    Mr. LaJoye. So I guess it would be any--any--right now, we 
use the K-9s to screen any passengers going through the 
checkpoint. That may in fact be folks that are already involved 
in TSA Trusted Traveler Programs, or standard passengers who 
have not been enrolled. We believe, again, that we may see a 
dog either screening passengers who are enrolled or passengers 
who are not, because we view them as an additional layer of 
security, not a replacement.
    Mr. Rogers. Yes. Yes, and that is the thing that--that I 
think we were concerned about coming in today is--is we had the 
perception that you all may have decide--developed a new 
category where you were going to just use the K-9s as the 
primary layer, and they should just be one of several layers 
that you have employed to make sure that these folks that don't 
need to be putting bad things on airplanes are able to do it.
    Mr. LaJoye. Yes, sir, and we agree.
    Mr. Rogers. Let me ask this, Mr. Russell. You made the 
point--you said K-9 expedited screening does meet best 
practices standard. Is that accurate?
    Mr. Russell. The design of the study that they did to 
determine the effectiveness of that approach.
    Mr. Rogers. You felt like that does--that was designed----
    Mr. Russell. Right.
    Mr. Rogers. To be an effective way----
    Mr. Russell. We had concerns initially that----
    Mr. Rogers. That they could measure, I guess.
    Mr. Russell. That it wasn't going to align with things like 
randomizing the airports selected and sort-of the scope of the 
review. TSA took action to--to make sure that the study they 
did conduct met the--that sort of criteria.
    Mr. Rogers. I see, I see. Last question I had was--Mr. 
LaJoye, you said about 66 percent of the people that you 
believe should be enrolled in PreCheck are not. Did I 
understand that you think the reason why is because it is just 
inconvenient for them to find a location to--to sign up?
    Mr. LaJoye. That is what----
    Mr. Rogers. Not the $100 fee, it is just inconvenience?
    Mr. LaJoye. The $80--$85 fee, sir. I--we really honestly 
think that the biggest barrier to an existing enrollment 
process: Finding a place to go enroll. That is what some of our 
market research says. We really think there are still lots of 
opportunities, even for those folks who fly 5 to 15 times a 
year, which really meets for that target passenger 
segmentation, we really think there is still a lot of room for 
us to target those people for full-time enrollment.
    Mr. Rogers. Yes, I agree. I--when I entered Global Entry, 
when I--to go into the interview part, you know, I had to go to 
the Atlanta Airport, to the farthest terminal. It was very 
inconvenient to do that. I do think that more people would go 
in to that, which would get them into PreCheck, if we could 
find a way to make those interviews more convenient. Because 
all the questions are done on-line.
    Mr. LaJoye. Yes, sir, and in fact, one of the things we 
are--we are coming up on the 5-year period for folks who signed 
up for PreCheck very early on, and so we are putting forth a 
plan for those passengers to do so on-line, without having to 
go back to an enrollment center. We also think that is 
important, in keeping people that are enrolled--keeping them 
enrolled.
    Mr. Rogers. Right, right.
    Mr. LaJoye. Again, pointing back to the really, really 
critical work we are doing with CBP, because it--we all agree 
that if we can merge programs at enrollment sites and an on-
line portal, we really think that is going to have a positive 
impact on the passenger and a positive impact on the overall 
growth of all DHS Trusted Traveler programs.
    Mr. Rogers. Great. Well, thank you. I yield back.
    Mr. LaJoye. Yes, sir.
    Mr. Katko. Well, thank you, Mr. Rogers. Before we go to the 
next question, I just want to note that former Secretary of 
Homeland Security Mr. Johnson is here today, and we saw him 
walk in, so welcome. It is very strange not to see you at the 
witness table, so----
    I--I imagine that is the case, so welcome. I will make just 
one quick observation that I made--two--two observations. One 
is if it is a question of convenience, put the kiosks at the 
airports. This--for PreCheck.
    The second thing is that, without betraying Classified 
information, we know that there are some materials of a non-
explosive nature that are considered lethal threat now that we 
have to account for, and--and I am not sure the K-9s were going 
to be trained on that. If they--they have to be trained on 
that, if that is the case, so we have to keep that in mind as 
well. That is yet another reason why only PreCheck should be 
PreCheck.
    With that, I would like to welcome Mr. Estes from Kansas 
for 5 minutes of questions. I am sorry, Mr. Keating for 5 
minutes of questions, excuse me, from Massachusetts.
    Mr. Keating. Thank you, Mr. Chairman. It is great to see 
you here, Mr. Secretary, again. Mr. LaJoye, thank you. As a 
Celtics fan, it is always great to have--gives me a great 
feeling that anyone named Bill Russell is in front of us, so 
thank you, Mr. Russell, as well.
    Now this is just a quick--couple of quick follow-ups. That 
list you have--it was the 95 list, I guess it was called in the 
Times, or it is under 50 people--there is no reason any 
employee should ever have to put up with assault, particularly 
in such a stressful job, and it gives me a--a time to comment 
on how great my experience has been seeing those people work 
under tough conditions.
    But I want to just--those 50 people--or, under 50 people, 
do they know they are on this list?
    Mr. LaJoye. I am not sure if they do or not, sir. But 
again, any passenger would have the right to go back through 
DHS TRIP if they want to ask----
    Mr. Keating. But--but they don't know they are on the list. 
So I would think it would be effective if these people, as a 
deterrent, knew they were on the list. I think--I think you 
should--should, you know, look into that.
    Mr. LaJoye. Yes, sir.
    Mr. Keating. Because if you are going to--you know, affect 
behavior, it would be great that they knew they were on the 
list, and it would be great if they are on the list, they--if 
they had a way to appeal that in case there is a subjective 
determination, if someone is hanging--I hang around the--the 
security lines before I jump in sometimes, too. I tend to walk 
in circles on the phone. So I don't know. I don't want to end 
up on a list either, so.
    Mr. LaJoye. If I could, sir, I would--that is really not 
the--what the intent of the program is for. It is not for 
somebody who--these are people that have demonstrated in the 
past their willingness to attempt to bypass----
    Mr. Keating. OK, I understand, I just want to get onto 
another question, but----
    Mr. LaJoye. Yes, sir.
    Mr. Keating. The--the good thing is, I think, if they know 
they are on the list, you might affect behavior better.
    Mr. LaJoye. Yes, sir.
    Mr. Keating. In the future. The best thing to do for 
employees is not to have them subject to it at all. So, that is 
the thing.
    I am curious, too--on--on the subject of another list. 
The--I am on Counterterrorism and Ranking on Terrorism and 
Foreign Affairs, but--how are you doing with the FBI no-fly 
list? How is that functioning? Any problems with that lately?
    Mr. LaJoye. No, sir.
    Mr. Keating. So no mistakes, no--because you would be on 
the--you would know, you are on the receiving end of this.
    Mr. LaJoye. Yes, from my perspective it is working quite 
well, sir.
    Mr. Keating. Good. Good to know that, when we have gun 
issues that are in front of us about people that can get 
explosives legally or a gun legally, and they are on the 
terrorist watch list that you say now is running so well, it is 
great to know, because the criticism for those people that 
oppose that are saying, wow, it is a mess. It is not 
functioning well, so we have to be careful of their rights.
    I am glad to hear it from your account. You said it in your 
testimony, Mr. LaJoye, that some of the revenues will help 
address the shortfalls. I just want to make sure--you said they 
are help, but if we could--that implies that if you had more 
resources, you could do a little better, this summer in 
particular when things spike. Any----
    Mr. LaJoye. Well, sir, what I----
    Mr. Keating. I just want to qualify your words.
    Mr. LaJoye. Yes, what is--what I would point out is one of 
the things that we are very aware of is that at about 45 
percent of the largest airports, they have one or more 
checkpoints that are capacity constrained. So there are a 
number of places where, even if we had more officers, it is not 
likely to mitigate sort of any wait time issues, which is why 
the work we are doing with the airports is so important.
    So as--as they are expanding the airports, we are 
monitoring things very, very closely. But for--for this summer, 
with fully 1,600 more officers than last summer, well I--I 
really do honestly feel that we are in the best position to 
meet the summer demand.
    Mr. Keating. Yes. We had a meeting with some of the airline 
industry, I think last year, too. One of the things that is 
difficult--that makes your job difficult is the configuration 
of the airports themselves. They are different. Anything that 
can be done to help along those lines, or anything we could 
do--this is a good chance for you to reach out for some help 
from us.
    Mr. LaJoye. I will give a lot of the--the airports a lot of 
credit. They are wholly involved. I--I know of virtually no 
airport that is not in the middle of major construction to make 
sure that they are, in fact, adding capacity. A number of the 
airports and airlines, you know, especially for the summer, are 
getting their employees out there to make sure they are 
communicating with passengers if there has been a change.
    So--and that is also--I think shows the sophistication of 
our model, because one of the things we now do is making sure 
at the design phase we are meeting with airports early on to 
know that in 3 years, in 2 years, if they are planning for 
additional lanes, we make sure we can account for those things 
in some of our future budget submissions.
    So great work, great partnership with the airports 
themselves on this.
    Mr. Keating. OK, I will--I will follow up with some written 
questions.
    Mr. LaJoye. Yes, sir.
    Mr. Keating. But I do thank you for your work. It is a 
tough job, and the people that work for you I think do very 
well, and it should be said from time to time.
    I yield back.
    Mr. Katko. Thank you, Mr. Keating. The Chair now recognizes 
Mr. Estes from Kansas for 5 minutes of questions.
    Mr. Estes. Thank you, Chairman. We have talked about TSA 
PreCheck enrollment, and I would agree that part of the delay 
in people signing up is because of the inconvenience of going 
to the location.
    Using myself as an example, I was one of those travelers 
who was probably traveling five times a year before I came into 
this role a year ago. At that point in time, the other 
motivating factor in addition to the inconvenience of having to 
go to the location to sign up for--for TSA PreCheck was roughly 
half the time when I went to the airport for one of those five 
flights I was automatically put into TSA PreCheck.
    I think that is also one of those factors that is really 
leading to a slow decline in the--or a--not a growth in the 
number of people that are enrolled. I know we have talked about 
it here, multiple times about that, and I just wanted to 
emphasize that that is something we need to--we need to keep 
pushing.
    Because I think that is if not as important, it is also a 
mitigating factor, and I don't know if that is part of what you 
are looking at as well. That is kind of why we are pushing 
for--to eliminate that practice.
    Mr. LaJoye. It is, and it is something that we agree. This 
is more of a natural evolution of what PreCheck looks like. I 
remember well the experience from 2016. So, I think it is 
important that we sort-of balance the capacity constraints of 
the airports, the growth of the TSA Trusted Traveler Programs, 
in addition to what that staffing looks like.
    But I do agree that it is something we have to very, very 
closely consider, given what we are facing in the world today. 
We really don't want to, you know, result in large crowds of 
people being in front of the airport, but I agree, fully. I 
understand the committee's concern with this. It is something 
we are very much focused on trying to improve.
    Mr. Estes. OK. Let me ask another question and we have 
talked about this already, to some degree. Just as we enter 
into the peak summer travel season and talked about some of the 
things we wanted to do. But I just wanted to see if, maybe, you 
could recap what the activities that you are expecting to do 
that would help mitigate that? To make sure that that is--that 
is the plan you have.
    Mr. LaJoye. So, compared to last summer, sir, we have 
increased overtime by 5 percent, across the board. We fully 
have between 1,400 and 1,600 additional officers than we did 
last summer. In addition to 50 more passenger screening K-9s.
    One of the other things that we have done, I think, to go 
back to show--demonstrate the maturity of our modeling is, the 
Federal security directors themselves, having been one, this is 
very close to me, they have much more flexibility in how they 
utilize their own resources. They can decide at what rate they 
want to have part-time versus full-time. They can decide at 
what rate that they want to increase their overtime within 
their budgets.
    There are a number of airports that we also know we have a 
difficult time competing, this would attract new talent. So, in 
some of these airports, we have increased--we have put our 
human capital folks in place for rapid hiring. We are on-
boarding double what we were. We are on-boarding almost 600 
additional officers a pay period.
    Then there are some places where we are really having to 
full-time. We have offered some temporary incentives to attract 
people to come work for TSA. So, it has really been a concerted 
effort over many--many months to make sure that everybody--all 
the leadership at TSA is focused on supporting those front 
lines, in addition to the great partnership we have been having 
with the airports and the airlines.
    Mr. Estes. So, I guess my only comment that I would add to 
that is, what I have seen over the last few months, the wait 
times are relatively fine in most of the airports that I have--
I have flown through. But my concern is, as we increase the 
peak travel amounts, that we are going to run into problems 
with that. So I wanted to make sure that those activities got 
engaged and done in time for us to use this summer.
    Mr. LaJoye. Yes, sir.
    Mr. Estes. Thank you, Mr. Chairman. I yield back.
    Mr. Katko. Thank you, Mr. Estes. The Chair now recognizes, 
Mr. Rogers for some follow-up questions, Mr. Rogers from 
Alabama.
    Mr. Rogers. Thank you, Mr. Chairman. I just wanted to try 
to be clear, I am still not clear on the K-9 expedited 
screening and its application. My understanding was that you 
were using it for people who were not in PreCheck, that you 
needed to move a little faster, but they were going through the 
standard screening, but in kind-of an expedited lane, as long 
as K-9s were added as a layer to that lane. Is that not what it 
is?
    Mr. LaJoye. It is that, sir. So, it is to--again, any 
passenger, today--any passenger going through the checkpoint 
could be subject to a passenger screening K-9. That could be 
somebody--we could have a K-9 being used to screen passengers 
that are already enrolled in TSA PreCheck because, in our view, 
it is an additional----
    Mr. Rogers. I argue it should be. I think that everybody 
should be.
    Mr. LaJoye. Yes, sir.
    Mr. Rogers. But how does this get the term expedited? How 
does that become applicable? If you are--assuming you are not a 
PreCheck traveler, my understanding is that is what you are 
trying to expedite, is the people who are not PreCheck 
passengers.
    Mr. LaJoye. I think that is fair, sir. So there are a 
number of ways you could go through an airport in an expedited 
manner. You could be, you now, somebody who is enrolled in a 
Trusted Traveler population and you are going through a 
dedicated PreCheck lane. In addition, on the standard lanes, 
any passenger with whom they have gone past the dogs and we 
know they have been screened for explosives, they go through 
the checkpoint at a similar configuration what a PreCheck lane 
would be.
    So that is really how we----
    Mr. Rogers. That is--OK. I am with you now. Thank you. I 
just wasn't clear.
    Mr. LaJoye. That is all right. It was probably me, sir.
    Mr. Rogers. Thanks.
    Mr. Katko. Thank you, Mr. Rogers. I just want to make sure 
I am clear on the follow-up question now. I was in Fort Meyers 
and the line was very long. The K-9s were there. They were 
putting everybody through the PreCheck line.
    The lane was, said PreCheck. Everybody was going through a 
PreCheck lane. So I am not sure that is uniform throughout the 
country. Then I am sure that may not be intent. But it is 
pretty clear to me that there is--people that are not in 
PreCheck that are going into PreCheck, once they go by a K-9, 
is that correct?
    Mr. LaJoye. That is correct, sir.
    Mr. Katko. OK, all right. Thank you very much.
    I appreciate both of your testimonies. I would encourage 
you to stay for the second panel, just so you can hear what 
they have to say about their concerns about wait times this 
summer. But I do appreciate everything you are doing. You have 
a very difficult job and I commend you for doing it.
    I also would be remiss if I didn't commend--a shout-out to 
all the officers on the front lines throughout the country, who 
do a very difficult job and they don't get paid a ton of money.
    There is an awful lot of pride that I see, especially when 
I go through Syracuse in the airports and get to know the 
people. The level of professionalism is pretty substantial. So 
you should all be congratulated for that.
    They are doing--they are trying to find the needle in the 
haystack every minute of every day.
    Like I told my scheduler, you notice you are doing--you 
only notice what is going on if you do something wrong, as a 
scheduler. It is the same thing with the--with the front lines 
there. I mean, you won't know it unless you are doing something 
wrong--unless something, a tragedy strikes.
    That is a pretty stressful situation for them. They do a 
wonderful job and they should be commended for that. So thank 
you very much. Thank you both for your professionalism today. I 
hope you stick around for the second panel.
    We will take a brief adjournment. Thank you very much.
    Mr. LaJoye. Thank you, Mr. Chairman.
    Mr. Katko. Thank you.
    [Recess.]
    Mr. Katko. OK, we are back on the record. I would like to 
welcome our second panel today for today's hearing. Our first 
witness is Ms. Lorraine Howerton, the senior director of 
government relations for the U.S. Travel Association. In this 
position she is responsible for outreach to advance U.S. 
travels legislative priorities in Congress, and for 
representing the organization on the Aviation Security Advisory 
Committee which has really turned into a really wonderful 
organization doing a lot of good work.
    Previously Ms. Howerton served as vice president for 
legislative affairs for the Aircraft Owners and Pilots 
Association where she spearheaded the creation of the 
Congressional General Aviation Caucus. Ms. Howerton is now 
recognized for 5 minutes for an opening statement.

 STATEMENT OF LORRAINE HOWERTON, SENIOR DIRECTOR OF GOVERNMENT 
               RELATIONS, U.S. TRAVEL ASSOCIATION

    Ms. Howerton. Good morning, Chairman Katko and Members of 
the committee. Is this better? Much better. Good morning, 
Chairman Katko and Members of the committee. It is my pleasure 
to offer testimony for you this morning.
    Thank you for the opportunity to allow me to testify on 
behalf of the U.S. Travel Association. U.S. Travel is the 
National nonprofit organization representing more than 1,200 
member organizations across all sectors of the travel industry 
that generates $2.4 trillion in economic output, and supports 
15.6 million American jobs.
    TSA PreCheck has been a major breakthrough in providing 
optimum security and improving the travel experience. Today 
PreCheck is an established program that is available at more 
than 200 airports with 52 participating airlines.
    Yet, enrollment is stagnant. Approximately 6 million people 
are enrolled and another 2 million have PreCheck as a result of 
Global Entry. Efforts to continue the program's expansion 
should be a priority for TSA and its expansion should focus on 
four areas which we refer to as the four Ps: Process, 
promotion, price, and prioritization. We urge the Trump 
administration and Congress to place a renewed focus on 
refining and enhancing the program to increase participation, 
particularly making enrollment more convenient without 
sacrificing security.
    U.S. Travel offers the following recommendations that would 
further improve PreCheck, protect travel or privacy, and give 
the American people the best return on their investments of 
traveler fees.
    We recommend that TSA analyze and develop a process for 
spontaneous enrollment. Too often, the current requirement for 
two forms of identification is a significant barrier to 
travelers enrolling in the program and a modification to only 
one document would make it easier for people to spontaneously 
enroll. A Real ID driver's license is an example how one 
document can serve the security purposes for enrolling in 
PreCheck.
    We also recommend offering volume discounts and financial 
incentive or a cost break to large companies to help spark more 
volume enrollments.
    The up-front cost of an $85 enrollment fee multiplied by 
thousands of employees is a measurable and significant cost 
with harder-to-measure returns. Providing quantity discounts to 
corporate travel managers, especially those who supply 
applicants to TSA for on-site enrollment, may create more 
corporate interest.
    Helping families also is warranted. We encourage TSA and 
its partners at OMB to reconsider the rule for children and 
explore a subscription model for fees that would be paid on an 
annual basis, not 5 years at a time.
    While younger children 12 and under are allowed a parent in 
PreCheck, older children cannot. The one-time cost of enrolling 
a family of five may be a significant factor for many families 
and deter enrollment.
    As it relates to checkpoint efficiency and as we head into 
one of the heaviest travel seasons, we know it is extremely 
important not to have long wait times, and we know that TSA 
mitigates the ebb and flow of peak travel by deploying various 
techniques to safely move people.
    One of the techniques is Managed Inclusion, or as we heard 
today, Enhanced Inclusion in the PreCheck lanes. Blending of 
populations confuses the traveling public, aggravates PreCheck 
customers, and diminishes the value of the program to both the 
Government and the traveler.
    We understand that Managed Inclusion is being phased out. 
However, phasing out Managed Inclusion without phasing in other 
strategies and screening techniques to maintain efficiency will 
only lead to longer lines and new frustrations. We hope TSA 
develops a plan to solve the problem rather than opting to 
trade one set of problems for a different set.
    Another recommendation we make is for Congress to help TSA 
get rid of the road blocks in expanding the number of third-
party prescreening companies. Currently there is one company. 
Having multiple companies will drive competition, reduce costs, 
and help grow enrollment.
    Last, I would be remiss if I did not remind this good 
committee that one-third of airline passenger fees collected 
are being diverted from TSA aviation security screening to the 
general fund until 2025.
    Comparing 2013 to 2017, travelers paid $2 billion more in 
fees; $3.9 billion versus 1.9 billion, for the exact same 
service. Revenue raised from aviation security fees should go 
toward securing travelers, not to deficit reduction. We support 
solutions to repeal the current diversion.
    This concludes my statement and I would look forward to 
answering any questions.
    [The prepared statement of Ms. Howerton follows:]
                Prepared Statement of Lorraine Howerton
                              May 17, 2018
    Chairman Katko and Ranking Member Watson Coleman I am pleased to 
testify today on behalf of the U.S. Travel Association on ``Assessing 
the TSA Checkpoint: The PreCheck Program and Airport Wait Times''.
    The U.S. Travel Association (U.S. Travel) is the National, non-
profit organization representing more than 1,200 member organizations 
across all sectors of the travel industry that generates $2.4 trillion 
in economic output and supports 15.6 million American jobs.
    Last week, the U.S. travel community celebrated National Travel and 
Tourism Week (NTTW), an annual tradition for the U.S. travel community. 
It's a time when travel and tourism professionals across the country 
unite to celebrate the value travel holds for our economy, businesses, 
and personal well-being. This year's celebration marked the 35th 
anniversary of the 1983 Congressional resolution that established NTTW. 
We were excited to recognize the enduring ethos of the travel industry: 
Welcoming travelers from all over the world to experience what makes 
this country the best place to visit.
    As demonstrated last week, the travel and tourism industry 
celebrates the value of travel, but we also recognize the need for 
security. U.S. Travel believes that security and efficiency are not 
mutually exclusive. Rather, they are equally important and equally 
achievable objectives. In particular, the Transportation and Security 
Administration (TSA) PreCheck has been a major breakthrough in 
improving the travel experience. In October 2011, TSA launched 
PreCheck as a pilot program, which was first available at four 
airports--Atlanta, Dallas, Detroit, and Miami. Today, TSA PreCheck is 
an established program that is available at more than 200 airports with 
52 participating airlines. The program is rightly hailed as one of the 
best innovations by the Federal Government in recent years, and has led 
to an improved relationship between the traveling public and the 
agency.
                               background
    U.S. Travel has long been concerned that an inefficient, 
inconsistent, and occasionally invasive screening process would deter 
legitimate travelers from traveling. Thus, in 2011, the Association 
concluded a year-long expert-led project to formulate recommendations 
for travel-enhancing changes to the goals and performance of TSA. Led 
by former Department of Homeland Security (DHS) Secretary Tom Ridge, 
Congressman Jim Turner, Sabre CEO Sam Gilliland, and American Airlines 
CEO Robert Crandall, this blue-ribbon panel issued a groundbreaking 
report, ``A Better Way,'' which made 14 recommendations for reforming 
TSA, based on the experience of security professionals, input from 
industry stakeholders, advice from privacy advocates, and surveys of 
travelers. Many of these recommendations were adopted by the agency and 
others were the focus of Congressional oversight and legislation.
    In 2016, U.S. Travel urged the new administration and the new 
Congress to place a renewed focus on refining and enhancing the 
operations of TSA through the issuance of the report ``Transforming 
Security at Airports: An Update on Progress and a Plan for the Future 
of Aviation Security,'' U.S. Travel experts outlined several concrete 
recommendations for how the TSA can improve its operations and specific 
to this hearing, the TSA PreCheck program.
    We recognize TSA is crucial not only to our National security, but 
also to the U.S. economy. U.S. Travel surveys have demonstrated that 
the public travels less when the system is bogged down by excessive or 
unpredictable wait times. These real or perceived failures impose an 
immense cost on the American economy. Research found that travelers 
would take between two and three more trips per year if TSA hassles 
could be reduced without compromising security effectiveness--and these 
additional trips would add $85 billion in spending and 888,000 more 
jobs to our economy.
    We urge the Trump administration and Congress to place a renewed 
focus on refining and enhancing the TSA PreCheck program to increase 
participation, particularly making enrollment more convenient without 
sacrificing security. TSA's mission to detect and deter security 
threats to the busiest aviation system in the world while facilitating 
the travel of nearly 775 million flyers per year is a complex, 
expensive, and extremely important undertaking. However, an effective 
TSA is crucial not only to our National security, but also to the U.S. 
economy.
    Unfortunately, TSA continues to struggle with a tumultuous 
budgetary environment, forcing the agency to regularly navigate a 
series of fiscal crises amid its usual operational challenges. Notably, 
TSA suffered a major budgetary setback when the Murray-Ryan 2013 budget 
deal became law. This law mandated that TSA fee increases be diverted 
to the General Fund as part of a deficit reduction package, which U.S. 
Travel opposed. These fees should have been appropriately reinvested 
into enhancing security measures and creating a first-class travel 
experience.
    As we work with Congress and the Trump administration, U.S. Travel 
is pleased to offer policy recommendations and our point of view on 
some of the most pressing issues facing our aviation security system--
in particular TSA PreCheck--suggesting reforms that would further 
improve security and air travel in America, protect traveler privacy 
and dignity and give the American people the best return on their 
investment of traveler fees and Government dollars.
                            recommendations
Improve and Grow the TSA PreCheck
    TSA PreCheck offers a faster security screening process to pre-
vetted domestic and international travelers, alleviating long lines and 
freeing TSA officers to focus on unknown passengers. Approximately 6.1 
million travelers are enrolled in TSA PreCheck and an additional 2 
million travelers enjoy TSA PreCheck benefits via their enrollment in 
the U.S. Customs and Border Protection (CBP) Global Entry program. In 
the interest of National security and providing a safe, efficient 
journey for travelers, U.S. Travel strongly advocates for the continued 
growth of TSA PreCheck. Moving these low-risk flyers quickly through 
security reduces crowds in airport waiting areas and, more importantly, 
allows TSA screeners to focus their attention on unknown travelers.
    TSA PreCheck refocuses resources on higher-risk passengers and 
expedites screening of low-risk, pre-vetted travelers. According to 
TSA, in April 2018, 92 percent of TSA PreCheck passengers waited less 
than 5 minutes to go through security. The best opportunity to ensure 
security and get travelers through lines quickly is presented by 
effective trusted traveler programs such as TSA PreCheck. The more 
eligible flyers sign up for PreCheck, the safer and more efficient the 
air travel experience will be for all. Efforts to grow the program 
should focus on four Ps: Process, promotion, price, and prioritization.
    In 2016, U.S. Travel conducted a study and found that 1 in 5 
travelers was deterred by the TSA PreCheck application process. TSA 
should analyze and develop a process for spontaneous enrollment. Too 
often, the current requirement for two forms of identification is a 
significant barrier to travelers enrolling in the program and a 
modification to only one document would enable TSA to better reach its 
stated goal of 25 million enrollees. Furthermore, it is time for TSA to 
stop relying on earned media and start selling TSA PreCheck through a 
dedicated and methodical marketing campaign.
    We are encouraged by private-sector initiatives to make it easier 
to apply for TSA PreCheck, especially through relationships with 
companies with a large consumer footprint. For example, in April, 
IDEMIA, the current TSA PreCheck contract holder, announced a 
partnership with Staples to deploy TSA PreCheck enrollment centers in 
50 Staples locations around the country. We also understand that at 
least 12 credit card programs cover the cost of TSA PreCheck, and five 
travel loyalty programs allow TSA PreCheck to be paid for via points 
or similar accumulated activity. National and Enterprise both have 
loyalty programs. U.S. Travel reimburses its employees for the full 
cost of both PreCheck, and Global Entry.
Reduce the Cost of TSA PreCheck
    However, we have been disappointed by the slower corporate adoption 
of TSA PreCheck, which may be largely due to the high cost of 
reimbursement imposed by the strict $85 enrollment fee. Offering 
corporations a financial incentive or cost break may help to spark more 
volume enrollments. In terms of companies, in 2016, Microsoft announced 
it would reimburse employees for both TSA PreCheck and Global Entry. 
This decision came after then-DHS Secretary Jeh Johnson and then-
Commerce Secretary Penny Pritzker wrote to 100 large U.S. companies 
requesting assistance in marketing and promoting TSA PreCheck. The 
fact that very few companies have followed Microsoft's lead may be 
because the up-front cost of an $85 enrollment fee, multiplied by 
hundreds or thousands of employees, is a measurable and significant 
cost with harder-to-measure returns. Providing quantity discounts to 
corporate travel managers, especially those who supply applicants to 
TSA for on-site enrollment, may create more corporate interest.
    Additionally, while younger children (12 and under) are allowed to 
join a parent in the PreCheck lane, older children cannot. The one-
time cost of enrolling a family of five may be a significant factor for 
many families and deter enrollment. We encourage TSA and its partners 
at the Office of Management and Budget (OMB) to reconsider fee rules 
for children, offer volume discounts, and explore a subscription model 
for fees that would be paid on an annual basis, not 5 years at a time.
Improve TSA PreCheck Lane Management
    U.S. Travel has expressed repeated concerns about TSA's on-again, 
off-again use of programs like ``managed inclusion'' that allow non-
PreCheck individuals into the TSA PreCheck screening lanes. First, 
such blending of populations confuses the traveling public about the 
TSA PreCheck program and the value to both the Government and the 
traveler to undergo a program enrollment. Second, allowing TSA 
employees on-the-ground discretion to determine passenger risk profiles 
on the spot is both a security risk and a potential for traveler 
complaints.
    We recognize that arranging security lanes and machines is a 
complicated process that does not always create the right mix of pre-
vetted and normal travelers. However, the continued practice of 
providing TSA PreCheck access because security lines are too long is a 
self-defeating process. U.S. Travel supports the use of passenger 
screening canines (PSCs), which increases security and efficiency in 
the general passenger screening process, often with greater accuracy 
than conventional methods, but if PSCs are going to be used to replace 
the screening done in the PreCheck application process, TSA will 
reduce the known, low-risk travelers who would otherwise enroll in the 
program.
Expedite the enlistment of third-party prescreening companies
    TSA has faced several road blocks in expanding the number of third-
party prescreening companies to sign individuals up for the program. 
Currently, there is only one third-party prescreening company. It is 
worth repeating that there is only one third-party vendor that 
prescreens applicants, markets the program, enrolls applicants and 
adjudicates their application. This is just not acceptable. There 
should be multiple companies. This will drive competition, reduce 
costs, and help grow TSA PreCheck, enrollment.
Redirect Airline Passenger Fees to Cover the Cost of and Improve TSA 
        Screening Operations
    Last, but not least, domestic and international travel are key 
drivers of the U.S. economy, supporting 15.6 million jobs, $2.4 
trillion in economic output, and $258 billion in wages. This growth is 
positive for the U.S. economy and job creation as a whole, but these 
increases and persistent funding fluctuations are straining TSA's 
current staffing resources. It is imperative for TSA to continually 
strive to develop and deploy strategies that will optimize its current 
workforce.
    The 2013 budget deal (known as ``Murray-Ryan'') increased TSA fees 
from $2.50 per segment to $5.60, but used the increased Federal revenue 
as a general revenue measure, failing to provide the funds to TSA. 
Thus, more than one-third of all airline passenger fees collected are 
being diverted from TSA aviation security screening to the General Fund 
until fiscal year 2025. As a result, travelers are paying considerably 
more in user fees but are not receiving the benefits of their fees in 
terms of better TSA performance, shorter lines, or better-trained 
screeners.
    This provision was included in the budget deal as one of many 
measures designed to meet revenue targets and avert additional worry 
about a Government shutdown or debt limit crisis. Changes to TSA ticket 
taxes had been proposed numerous times by the Bush, Obama, and Trump 
administrations but were always rejected by Congress as an 
inappropriate additional tax on travelers. During this budget 
negotiation, however, the breadth of the budget package made it 
possible for negotiators to not only include ticket tax increases, but 
also to use the additional revenue as an offset for spending outside of 
DHS or TSA. Over the objection of the travel and aviation industries, 
the provision became law in early 2014, and became effective in July 
2014.
    Comparing 2013 to 2017, travelers paid $2 billion more in fees--
$3.9 billion vs. $1.9 billion--for the exact same service. This 
diversion essentially requires travelers to fund aspects of Government 
completely unrelated to TSA's mission--anything from military bands to 
education funding to flood control.
    While we recognize the emergency nature of the Murray-Ryan deficit 
reduction package, Congress must reverse the on-going diversion. 
Revenue raised from aviation security fees should go toward securing 
travelers, not to deficit reduction. We support solutions to repeal the 
current requirement that a portion of aviation security service fees be 
credited as offsetting receipts and deposited into the General Fund of 
the Treasury. More broadly, we encourage Congress to ensure that 
security funding is used to improve all aspects of aviation security 
including, but not limited to, staffing, developing technologies, and 
checkpoint and airport facility enhancements.
    Thank you for the opportunity to testify today on behalf of the 
U.S. travel and tourism industry. For U.S. Travel, nothing matters more 
than the safety of our Nation and travelers. We appreciate your holding 
this hearing to explore ways to make TSA PreCheck, more efficient and 
effective both from a security and facilitation perspective.

    Mr. Katko. Thank you Ms. Howerton. I appreciate your 
testimony. You made some great points we will follow up on. I 
am glad that TSA has remained here so they are hearing it as 
well. I thank you for staying and taking the time.
    Our second witness is Ms. Sharon Pinkerton, the senior vice 
president of legislative and regulatory policy for Airlines for 
America. In this position, Ms. Pinkerton leads policy 
development on legislative and regulatory matters, working 
closely with Capitol Hill and the administration.
    Before joining A4A, she served as an assistant 
administrator for aviation policy, planning, and environment at 
the Federal Aviation Administration. Prior to her time at the 
FAA, she served as transportation counsel to House Aviation 
Subcommittee Chairman John Mica. You are dating yourself. Ms. 
Pinkerton is now recognized for 5 minutes for an opening 
statement.

   STATEMENT OF SHARON L. PINKERTON, SENIOR VICE PRESIDENT, 
    LEGISLATIVE AND REGULATORY POLICY, AIRLINES FOR AMERICA

    Ms. Pinkerton. Thank you Chairman Katko. We appreciate--
thank you so much, Chairman Katko. We appreciate the 
opportunity to be here today to talk to you about these 
important issues.
    My real message to you all today is really to say thank 
you. I think that as a result of your work, TSAs work together, 
partnering with airlines and airports we are cautiously 
optimistic that TSA is ready for the summer travel. Four 
percent growth, it is significant.
    Now the reason for the caution in my optimism is that we 
haven't forgotten what happened in 2016. We have talked about 
it here today. There was a terrible DHS IG report. TSA 
ratcheted the dials on the security equation in one way without 
adjusting staffing and other processes. We did end up with 3-
hour wait times, and I think that is something none of us want.
    So our lesson learned is that actions have consequences. 
Now, that is why, Chairman Katko, we are supporting your idea 
of transitioning away from using K-9s and rules to put non-
PreCheck passengers into the PreCheck lane. As long as that is 
coupled with the other side of the security equation, which is 
as we discussed, getting more people into the PreCheck lane. Or 
this other idea that I would like to start putting on the 
table, which is having another vetting procedure in place that 
will enable some form of known travelers to have a different 
experience, not necessarily the PreCheck experience, but a 
risk-based security experience.
    Said another way, I think we have to start by understanding 
that staffing isn't the be-all and end-all. it is one very 
important part of the puzzle. Commend TSA for getting us up to 
somewhere between 600--1,600 more FTEs year-over-year.
    But it is really important that we actually look at this as 
a process in improving our security processes, and very 
importantly, deploying better technology. So it is with that 
big picture that we are making the following recommendations. I 
want to talk about PreCheck first.
    If we all agree that we don't want to put non-PreCheck 
passengers into the PreCheck lane, the question that is still 
on the table is: How do we get those PreCheck numbers up? We 
are not on a path right now to meet the 25 million that TSA 
had.
    First, I think we all need to recognize that, for some 
reason, despite Chairman Katko's legislation and the 
legislation embraced by this subcommittee, the third-party 
enrollment program has not delivered. I am not quite sure how 
it has gotten all bolloxed up, but I think you need to get to 
the bottom of that.
    What I would like to think about is what--what can we do, 
putting that aside for--for the moment. We heard Darby mention 
a little bit. TSA and CBP need to merge their Trusted Traveler 
programs. We have got two programs out there. Two sets of 
infrastructure. Two sets of locations.
    We need to merge those where it makes sense. Instead of 
having TSA and CBP compete, let us combine resources and have 
one simple, easy to use application process. I think that 
working together, TSA and CBP are going to be able to make 
signing up more accessible.
    Darby mentioned moving toward mobile enrollment, we should 
be there today. We are living in a mobile society, there is no 
reason for us not to have mobile enrollment. Let us make those 
enrollment centers more location-friendly and not so far away. 
The schedule needs to be something other than 8 to 4. All the 
ideas that Lorraine talked about, about some fee incentives for 
families and big groups make a lot of sense.
    Let's move on to some other ideas. We believe that, if 
Congress truly believes that 99 percent--let us even say 95 
percent of the traveling public is not the problem, we are 
really looking for that small percentage of people that are a 
problem, we need to start thinking differently about the 
checkpoint. We believe that passengers who may be willing to 
submit commercial data and subject themselves to a different 
level of vetting, maybe not as far as the PreCheck level of 
vetting, but something that is easier and faster, can get a 
different experience; perhaps using dogs, the Managed 
Inclusion, et cetera, that is one way to achieve some 
efficiencies.
    TSA and CBP need to start working together on biometrics. 
Right now they are both going in different directions. We need, 
again, to harmonize and focus on technology that is going to 
enable a more smooth process at the airport, but also increase 
our security.
    We need to accelerate the CT technology. Again, I want to 
say thank you, the language in the omnibus was very helpful, 
but that--we need to move that deployment on quicker, we need 
more machines out there more quickly. I know you have been to 
Amsterdam, I have as well. I think it is good for screeners, it 
is good for the detection of the types of emerging threats that 
we are seeing.
    Can't say enough about dogs, it is one of our highest 
priorities. We are not where we need to be, you know, Darby 
mentioned they are at 242 right now, they should be at 372. We 
are pushing the TSA accelerate their third-party K-9 
certification program, both in cargo where they are making more 
progress, but also in the passenger environment.
    Finally, couldn't agree more with Lorraine, we are 
diverting $1.3 billion every year away from security and making 
it go to deficit reduction. That needs to change, that money 
could come back in, be spend on CT and dogs, and I look forward 
to having the conversation with you. Thank you.
    [The prepared statement of Ms. Pinkerton follows:]
               Prepared Statement of Sharon L. Pinkerton
                              May 17, 2018
    Good morning Chairman Katko, Ranking Member Watson Coleman, and 
Members of the subcommittee. My name is Sharon Pinkerton and I am the 
senior vice president of legislative and regulatory policy at Airlines 
for America (A4A). Thank you for inviting me here today to discuss 
aviation security and the Transportation Security Administration (TSA) 
PreCheck program.
    Overview.--The safety and security of our passengers and employees 
is our single highest priority and we take aviation security very 
seriously. We share this common goal with the TSA and work 
cooperatively and collaboratively with them every day through programs 
like Known Crew Member (KCM) and TSA PreCheck (amongst many others) in 
an effort to keep our skies safe and secure with a focus on both 
passenger and cargo security.
    When talking about the day-in and day-out challenges of aviation 
security it is important to be reminded of and to understand the depth 
and magnitude of what actually takes place and what is transported by 
air every single day. On a daily basis, U.S. airlines--
  <bullet> Fly more than 2 million passengers;
  <bullet> Carry close to 50,000 tons of cargo;
  <bullet> Operate approximately 27,000 flights; and
  <bullet> Serve more than 800 airports in nearly 80 countries;
    Given the vast geography and sheer numbers it is exceedingly 
important that we approach security in a smart, effective, and 
efficient manner that best utilizes the finite resources available. 
This becomes even more imperative given the expectation that both 
passenger and cargo traffic will grow in the coming years.
    Risk-Based Security.--The administration of risk-based security 
principles is of paramount importance to aviation security today and in 
the future. A risk-based approach recognizes that ``one size fits all'' 
security is not the optimum response to threats. Risk-based, 
intelligence-driven analysis has been a widely-accepted approach to 
aviation security for some time. The 9/11 Commission, for example, in 
2004 called for thorough, risk-based analysis in evaluating aviation-
security issues.\1\
---------------------------------------------------------------------------
    \1\ In its final report, the Commission stated: ``The U.S. 
Government should identify and evaluate the transportation assets that 
need to be protected, set risk-based priorities for defending them, 
[and] select the most practical and cost effective ways of doing so . . 
. ''. Final Report of the National Commission on Terrorist Attacks Upon 
the United States, at 391 (2004).
---------------------------------------------------------------------------
    One of our Nation's greatest challenges is to strike the right 
balance between managing risk and over-regulation. Enhanced security 
and the efficient movement of passengers and cargo are not mutually 
exclusive goals, thus Government and industry must continue to work 
together to find pragmatic approaches to security that appropriately 
balance these issues. If we do not achieve that balance, we will lose 
passenger and shipper goodwill, clog up our airports, slow world trade 
and in fact diminish the level of security we have currently achieved. 
By utilizing and following risk-based principles we provide a security 
framework that can be more nimble and responsive to current and 
emerging threats and allows TSA to focus resources on high-risk 
passengers and cargo.
    As we will discuss today, TSA PreCheck is a fundamental layer and 
key program component of an effective and efficient risk-based security 
system. Today we will share our recommendations for how the Department 
of Homeland Security (DHS), Customs and Border Protection (CBP) and TSA 
can improve enrollment in TSA and other screening programs. We also 
believe it is time for a reassessment of DHS screening programs to look 
at potential ways to modernize and potentially create categories or 
levels of lower-risk passengers that may not be in or want to join TSA 
PreCheck but that could be identified and more effectively moved 
through security in a manner that takes less TSA screening resources.
    The Lesson of the Summer of 2016.--Our industry has not forgotten 
the summer of 2016 when many travelers unfortunately experienced 
unacceptably long TSA screening lines at airports across the Nation. 
The root causes of those excessively long wait times were clear to 
many. Looking back at the previous summer in 2015 there was a record-
setting travel season but the system did not experience excessive wait 
times. However, in 2016, as a result of reported TSA screening failures 
in a DHS Inspector General's report, DHS significantly cut back on 
risk-based security efficiencies without making an adjustment to 
staffing and other processes to accommodate those modifications. This 
is a key lesson learned: Every action taken has consequences, some 
unintended. Given the known and immediate impacts, we do not believe 
TSA should simply stop the current practice of using canines and a 
rules-based approach to give certain passengers a TSA PreCheck 
experience without taking action on the other end of the security 
equation to ensure that more people are enrolled in TSA PreCheck or 
have another vetting procedure in place that will enable a Known 
Traveler experience for low-risk passengers. We strongly support TSA's 
transition plan to segment and screen passengers differently while they 
eliminate the practice of using canines.
    If there is a silver lining to the 2016 summer experience it would 
be the collaborative discussions and close daily collaboration amongst 
Government and stakeholders under Administrator Pekoske's leadership. 
As a result, airlines have worked with TSA and airports to institute 
best practices. The TSA has also established a National Airport 
Operations Center that tracks daily screening operations and shifts 
officers and resources where they are needed most based on passenger 
volumes. This collaboration is not the exception, it is enshrined in 
our daily routine and operations and it has significantly elevated our 
security baseline across the entire system. Coordination and 
collaboration makes our system more safe and we are now better prepared 
on a daily basis than we have ever been.
    To that end, we would also like to thank Congress for your 
assistance and attention to TSA's staffing. For instance, we know we 
will see about 4 percent growth this summer travel season but through 
your assistance TSA expects to have an additional 1,600 officers hired 
and 50 extra canines on board to deal with that anticipated growth. 
That said, we are interested in understanding TSA's plan for 
maintaining reasonable throughput if airlines and airports were to no 
longer supply contract labor support for non-screening functions as 
this support was intended to temporarily assist during the Summer 2016 
crisis.
    We must realize though that staffing is just one part of the 
puzzle. Improving the security process and deploying better technology 
are critical elements in our continued efforts to ensure a secure 
system that also improves the passenger experience.
    In ``assessing the TSA checkpoint'', A4A offers the following 
recommendations to modernize our system:
  <bullet> Merge TSA PreCheck and CBP Global Entry and eliminate the 
        duplication of processes;
  <bullet> Create a new segment of vetted passengers using third-party 
        commercial data that allows for a form of expedited screening;
  <bullet> Accelerate deployment of Computed Tomography (CT) 
        Technology;
  <bullet> Allow TSA and CBP to jointly utilize opt-in biometrics to 
        improve security and facilitation;
  <bullet> Utilize and expand the use of canine teams; and
  <bullet> Stop the annual practice of diverting passenger security fee 
        revenue.
    Merge TSA PreCheck and CBP Global Entry and eliminate the 
duplication of processes.--As an industry, we are promoting expedited 
screening programs, and in many cases our members are waiving the cost 
of enrollment for some frequent flyers and providing space at airports 
to set up walk-up processing stations. Airlines also work 
collaboratively with TSA on the KCM program, which now processes 
250,000+ crewmembers through separate access points. Much work needs to 
be done however, while we did see significant growth in the number of 
TSA PreCheck enrollees in the aftermath of the summer of 2016, that 
bump has since leveled off and we are currently not on a path to reach 
the TSA goal of 25 million enrollees. In order to reach and hopefully 
exceed that goal, we would specifically recommend that DHS----
  <bullet> Merge Global Entry and TSA PreCheck to create a unified DHS 
        vetting program;
  <bullet> Fast-track a robust and aggressive marketing campaign 
        through third-party enrollment options;
  <bullet> Allow mobile enrollment;
  <bullet> Make the enrollment centers more accessible by adjusting 
        locations and schedules; and
  <bullet> Consider reducing the enrollment fee for families.
    Create a new segment of vetted passengers using third-party 
commercial data that allows for a form of expedited screening.--We are 
eager to work with TSA to create a program that further develops a 
risk-based approach to screening. Since we are limited by space at the 
airport, we need to find ways to make better use of existing space. If 
we believe that 99 percent of the traveling public are lower-risk, we 
should begin to segment that 99 percent into categories to provide a 
different level of screening based on vetting. For now, those willing 
to opt-in to a background check through fingerprints are admitted into 
TSA PreCheck. Those willing to undergo a different kind of vetting 
using public and personally-supplied data could be put in a different 
lane with a different level of screening than either TSA PreCheck or 
the passengers about whom nothing is known.
    Accelerate deployment of CT Technology.--Last year, the TSA 
implemented measures to address concerns about new, intelligence-backed 
threats concealed in personal electronic devices (PEDs). Those 
measures, requiring greater passenger divestiture, have created longer 
passenger lines at some checkpoints. While we applaud TSA's 
responsiveness to the threat, we ultimately believe greater investment 
in technology must be prioritized so that TSA can both improve its 
threat detection capabilities, optimize staffing performance, and 
maintain passenger throughput at reasonable levels.
    We are particularly enthusiastic about TSA's testing of 3D scanning 
or CT because of the enhanced detection capabilities and easy 
upgradability. We believe checkpoint CT will help TSA focus on the 
threat in real time and will significantly improve screening 
effectiveness and efficiency.
    We are also encouraged by the support and interest of Congressional 
stakeholders and the serious efforts by TSA to test, enhance, and 
demonstrate this capability and we applaud the fiscal year 2018 funding 
support provided by the Congress to rapidly advance, begin fielding CT, 
and replace over 2,400 advanced technology X-ray systems. Some of our 
members have gifted CT units to TSA in an effort to expedite testing 
and certification of the technology. While this practice isn't 
sustainable, we believe it shows our commitment to improving our risk-
based aviation security framework. We urge the committee to continue to 
prioritize the deployment of CT across our aviation system.
    Allow TSA and CBP to jointly utilize opt-in biometrics to improve 
security and facilitation.--If TSA and CBP were to jointly advance the 
adoption of biometric technology for identity management in the airport 
environment, DHS could both improve security and transform the 
passenger air travel experience. A unified DHS approach for collecting 
and utilizing biometric data is critical to enhancing security and 
leveraging scarce taxpayer and passenger resources. Right now, TSA and 
CBP are pursuing different biometric solutions with TSA using 
fingerprints and CBP piloting facial recognition, when we should be 
pursuing a more harmonized and common-sense approach that improves both 
security and facilitation without putting unnecessary cost burdens on 
the industry.
    Utilize and expand the use of canine teams.--The use of canine 
teams has been a tremendous success in both the passenger and cargo 
security environment. We would advocate that Congress continue to 
support and expand the canine program. We also encourage TSA to 
accelerate their third-party canine certification program for cargo and 
passenger canines.
    Stop the annual practice of diverting passenger security fee 
revenue.--U.S. aviation and its customers are subject to 17 Federal 
aviation taxes and ``fees'', in addition to standard corporate taxes. 
In fiscal year 2017 alone, special U.S. taxes on airlines and their 
customers totaled over $24 billion--more than $66 million per day. 
Included within those numbers are revenues that are intended to support 
activities within the DHS. These ``fees'' include the----
  <bullet> September 11th TSA Passenger Security Fee--a $5.60 fee 
        imposed per one-way trip on passengers enplaning at U.S. 
        airports with a limit of $11.20 per round trip; the fee also 
        applies to inbound international passengers making a U.S. 
        connection.
  <bullet> Customs User Fee (CUF)--a $5.65 fee on passengers arriving 
        in the United States from foreign locations to fund inspections 
        by U.S. Customs and Border Protection (CBP); passengers 
        arriving from U.S. territories and possessions are exempt.
  <bullet> Immigration User Fee (IUF)--a $7.00 fee imposed on 
        passengers arriving in the United States from foreign locations 
        to fund inspections performed by U.S. Immigration and Customs 
        Enforcement (ICE).
    As an industry we have seen an all-too-common trend of either 
directly or indirectly diverting the revenue collected from these 
``fees'' toward deficit reduction or other sectors of the Government. 
For instance, starting in 2001 the TSA passenger security fee had been 
limited to $2.50 per passenger enplanement with a maximum fee of $5.00 
per one-way trip. However, starting in July 2014, pursuant to the 
Bipartisan Budget Act of 2013, the fee was restructured into a single 
per-trip charge and increased to $5.60 per one-way trip. That increase, 
over the 10-year period from fiscal years 2014-2023, is projected to 
raise $40 billion with $13 billion for deficit reduction. Subsequently, 
this diversion practice was continued and extended in both the 2015 
Highway bill (Pub. L. 114-41) and the Bipartisan Budget Act of 2018. 
Specifically, these laws have already diverted or will divert----
  <bullet> $390,000,000 for fiscal year 2014;
  <bullet> $1,190,000,000 for fiscal year 2015;
  <bullet> $1,250,000,000 for fiscal year 2016;
  <bullet> $1,280,000,000 for fiscal year 2017;
  <bullet> $1,320,000,000 for fiscal year 2018;
  <bullet> $1,360,000,000 for fiscal year 2019;
  <bullet> $1,400,000,000 for fiscal year 2020;
  <bullet> $1,440,000,000 for fiscal year 2021;
  <bullet> $1,480,000,000 for fiscal year 2022;
  <bullet> $1,520,000,000 for fiscal year 2023;
  <bullet> $1,560,000,000 for fiscal year 2024;
  <bullet> $1,600,000,000 for fiscal year 2025
  <bullet> $1,640,000,000 for fiscal year 2026; and
  <bullet> $1,680,000,000 for fiscal year 2027.
    Airlines and their customers now pay $1.6 billion more in TSA 
security fees--$3.9 billion (2017) vs. $2.3 billion (2013)--for the 
exact same service. A similar story can be told in regards to customs 
user fees. The concept of a ``fee'' specifically charged to pay for a 
specific service has long been lost in our industry and they have all 
simply become taxes by another name.
    We would respectfully request this committee do everything in its 
power to redirect TSA passenger security fee revenue back where it 
belongs: Paying for aviation security. These diverted funds could go a 
long way to not only expanding enrollment in TSA PreCheck but also 
deploying critical technology like CT.
    Importance of Commercial Aviation Sector.--Airlines crisscross the 
country and globe every day carrying passengers and cargo safely and 
securely to their destinations and is an integral part of the economy. 
In 2014, according to the Federal Aviation Administration (FAA), 
economic activity in the United States attributed to commercial 
aviation-related goods and services totaled $1.54 trillion, generating 
10.2 million jobs with $427 billion in earnings. As of December 2016 
our industry directly employed nearly 700,000 workers and contributes 5 
percent of our Nation's GDP.
    These facts underscore what is at stake and why we need to approach 
aviation security in a smart, effective, and efficient manner and make 
sure we get it right. The daily collaboration and communication between 
TSA and stakeholders will play a vital role toward that goal and 
programs like TSA PreCheck are essential to our risk-based security 
system being successful.
    Thank you, on behalf of our member companies, we appreciate the 
opportunity to testify.

    Mr. Katko. Thank you very much, excellent points you have 
made. As always, I appreciate your testimony.
    Our third witness is Ms. Wendy Reiter, who is testifying on 
behalf of the American Association of Airport Executives.
    Ms. Reiter currently serves as director of aviation 
security for Seattle/Tacoma International Airport. We often get 
excellent input from them and I am looking forward to hearing--
hearing from you again.
    In this position, she leads the port of Seattle's Aviation 
Security Department and oversees all TSA mandates that involve 
the security of the 16,000 employees and travelers at the 
SeaTac Airport.
    Prior to joining the port of Seattle, Ms. Reiter was a 
station manager for Southwest Airlines and director of customer 
service for Northwest Airlines, where she received numerous 
awards for leadership and outstanding customer service.
    Ms. Reiter is now recognized for 5 minutes for an opening 
statement.

   STATEMENT OF WENDY REITER, DIRECTOR OF AVIATION SECURITY, 
 SEATTLE/TACOMA INTERNATIONAL AIRPORT, TESTIFYING ON BEHALF OF 
         THE AMERICAN ASSOCIATION OF AIRPORT EXECUTIVES

    Ms. Reiter. Chairman Katko and Members of the subcommittee, 
thank you for the opportunity to discuss operations at TSA 
checkpoints, the PreCheck program and the airport wait times.
    My name is Wendy Reiter and I currently serve as the 
director of aviation security for Seattle/Tacoma Airport, which 
is owned and operated by Port of Seattle. I also recently 
served as vice chair of the Transportation Security Services 
Committee of America Association of Airport Executives.
    The story of Sea/Tac is one of dramatic growth, from 31 
million passengers in 2010 to almost 47 million last year. The 
growth is a reflection of the dynamic economy and the global 
relevance of the Puget Sound region and Sea/Tac's increasingly 
important role in the National airspace system.
    At Sea/Tac, we are working overtime to try and accommodate 
the increasing demand. On our side, that required major 
investment in infrastructure, technology, and staffing. We are 
currently in the midst of a $3 billion capital investment 
program, and have spent more than $20 million in staffing and 
technology to reduce the burden on TSA and increase the 
efficiency at their checkpoints.
    Similarly, TSA is being required to quickly increase their 
capacity to handle our growth. We deeply appreciate the 
partnership that we have with them, including both local TSA 
staff and TSA leadership in Washington, DC.
    I also want to thank the subcommittee for your work on the 
Checkpoint Optimization and Efficiency Act, which has resulted 
in improved collaboration, communication, and information 
sharing at the local level.
    However, there is more work that needs to be done. At Sea/
Tac we have set a wait time goal of 20 minutes or less at the 
passenger screening checkpoints. We see this effort not only as 
a customer service priority, but a critical security measure.
    We know the best way to protect a soft target such as an 
aggregation of people in the public area is to process them to 
the sterile side of the airport as quickly as possible. 
Unfortunately, meeting that goal has been difficult, in large 
part because TSA hiring cannot keep pace with the attrition of 
TSA officers to the hiring--to the higher paying jobs that our 
region's economy is creating.
    To give you a sense of our challenges, we have 32 lanes 
currently available for security screening, yet TSA has not 
been able to staff more than 26 lanes recently at peak. We are 
approaching wait times of almost 1 hour.
    To compensate, we rely greatly on TSA's use of passenger 
screening K-9s for what they refer to as K-9 enhanced 
screening. While we consistently encounter issues with K-9 
availability, we believe that these dogs are the best possible 
investment that the TSA can make.
    Their accuracy is even better than screening machines and 
they assess current threats, rather than PreCheck's vetting of 
background risks, they provide the greatest efficiency gains, 
therefore we have significant concerns about reducing the 
ability to offer modified screening for general lane passengers 
that are screened by K-9s.
    We strongly support efforts to maximize TSA PreCheck 
enrollment; however, we know that one of the biggest threats to 
airports and passenger security is long wait times that create 
soft targets.
    Reducing the throughput benefits of K-9s will increase that 
threat by more than doubling wait times at Sea/Tac's general 
screening lanes. Just this morning, the call out of one K-9 
resulted in incident command because wait times that push 
general screening lanes onto our escalators.
    TSA should also take consideration the impact of wait times 
of the deployment of CT machines in the next few years. We 
support the added security that advanced technology will 
provide, but significant work will need to be done to address 
its implementation impacts, such as throughput rates, false 
alarm resolutions, and physical checkpoint configurations.
    While passenger screening is by law the sole responsibility 
of TSA, airports play a critical role a partners. To that end, 
we hope that any changes that would impact security would be 
done in collaboration with us rather than being imposed.
    Thank you for your time today and I look forward to your 
questions.
    [The prepared statement of Ms. Reiter follows:]
                   Prepared Statement of Wendy Reiter
                              May 17, 2018
    Chairman Katko, Ranking Member Watson Coleman, and Members of the 
subcommittee, thank you for the opportunity to discuss operations at 
Transportation Security Administration (TSA) checkpoints, the PreCheck 
program and airport wait times. My name is Wendy Reiter, and I 
currently serve as the director of aviation security for Seattle-Tacoma 
International Airport (Sea-Tac), which is owned and operated by the 
Port of Seattle. I also recently served as vice-chair of the 
Transportation Security Services Committee of the American Association 
of Airport Executives (AAAE).
    To put my remarks in context, let me start by sharing the growth 
that Sea-Tac has been experiencing, and the impact that has had on our 
airport's TSA security screening checkpoints. In 2010, Sea-Tac served 
31 million passengers; last year--a mere 7 years later--we saw almost 
47 million passengers. This growth is a reflection of the increasing 
economic dynamism and global relevance of the Puget Sound region and 
Washington State. With innovative companies such as Boeing, Microsoft, 
Amazon, and Starbucks along with disruptive start-ups in biotech, 
global health, retail, manufacturing, and IT, our economy is booming, 
and the Seattle area has one of the fastest-growing populations in the 
country. Those individuals and businesses demand more air service.
    It is not just the robust Seattle economy that requires Sea-Tac 
Airport to scramble to handle this extraordinary increase in airline 
traffic; Sea-Tac is playing an increasingly important role in the 
National Airspace System (NAS). Over the last 7 years, almost a dozen 
new international carriers have introduced service to our airport, 
while our hub carriers have expanded flights, destinations, and plane 
sizes. As aircraft technology has evolved and as foreign flag airlines 
have initiated non-stop service from cities across Asia to U.S. cities, 
Seattle's role as a critical U.S. gateway to Asia has become more 
pronounced. This circumstance has certainly benefited the Seattle 
region, but, more importantly, it has made the NAS more efficient by 
effectively replacing a Northeast Asia hub with a U.S. gateway hub. 
Quite logically, there is a growing amount of ``feed'' traffic from all 
over the United States to Seattle to make the most efficient use of a 
gateway that is closer than any other in the United States to the vast 
majority of Asian destinations.
    The point is that Sea-Tac is serving more and more passengers, and 
we are working overtime to try and accommodate that demand. On our 
side, that requires major investments in infrastructure, technology, 
and staffing, and we are currently in the midst of a $3 billion capital 
investment plan, with another $5 billion plan in the works. We've also 
invested tens of millions of dollars in additional staffing and on exit 
lane and screening lane technologies to do our part to reduce the 
burden on TSA and increase the efficiency of their checkpoints.
    But regardless of what we do, TSA is being required to quickly 
increase their resources and capacity to handle our growth. We deeply 
appreciate the partnership we have with them to try and accommodate 
this demand, including both our local TSA staff and TSA leadership in 
Washington, DC. I also want to thank Chairman Katko and the 
subcommittee for your work a few years ago on the Checkpoint 
Optimization and Efficiency Act, which was passed into law as part of 
the FAA Extension Safety and Security Act of 2016. I was honored to be 
part of a roundtable discussion this subcommittee hosted prior to 
drafting that legislation and I am glad Congress agreed with so many of 
the recommendations of how to address what was then a crisis at the 
checkpoints. The result has been increased Federal Security Director 
(FSD) discretion and improved collaboration, communications, and 
information sharing at the local level. However, there is more work 
that still needs to be done.
    At Sea-Tac, we have set a goal of getting all travelers through the 
passenger screening checkpoints in 20 minutes or less. We see this 
effort not only as a customer service priority but also a security 
measure, because the best way to protect an aggregation of people from 
perimeter threats is to disperse them to the sterile side of our 
airport as quickly as possible.
    Unfortunately, meeting that 20-minute goal has been difficult, in 
large part because TSA hiring cannot keep pace with the attrition of 
Transportation Security Officers (TSOs) to the better, higher-paying 
jobs that our region's economy is creating. Although TSA has 
implemented faster hiring procedures, increased outreach, recruitment 
and retention bonuses and local training, TSO attrition rates translate 
directly into fewer operational screening lanes and longer checkpoint 
wait times; to give you a sense of our challenges, we are only 
averaging around 65 percent of customers making it through the 
checkpoints under our 20-minute goal. Those wait times have been 
consistently increasing since the fall of 2017.
    Because of those TSA staffing challenges, we rely greatly on TSA's 
use of passenger screening canines for what the agency refers to as 
Canine Enhanced Screening. These dogs have been able to almost double 
the throughput of our checkpoints, when deployed, and are an unmatched 
resource in helping us achieve our customer service and security goals. 
In fact, we believe that TSA canines are the best possible investment 
that the TSA can make; they provide the biggest efficiency gains, their 
accuracy is even better than screening machines, and they assess 
current threats rather than PreCheck's vetting of background risks.
    Like most large and fast-growing airports throughout the country, 
we consistently encounter issues with the availability of canines; 
being staffed to our allotted number of canines; transfer of canines to 
other airports; or time spent in training and certification. It took 
almost a year and a half between when the TSA model assigned us 10 
passenger screening canines to when we reached that level this past 
March, and we're still in a situation where some of those 10 dogs are 
only temporary transfer canines. This subcommittee knows all too well 
the challenges at Lackland Air Force Base with increasing National 
canine capacity, and Sea-Tac has been a staunch advocate--in 
partnership with U.S. Senator Maria Cantwell--for exploring third-party 
canine training and certification options. I would like to thank the 
subcommittee for their efforts on this topic, and please consider us a 
partner as you work to move forward.
    Given the challenges that we already have with TSO and canine 
availability, we have significant concerns about plans under 
consideration that would reduce the ability of TSA to offer modified 
screening for general lane passengers screened by canines. We can ill 
afford any changes to procedures that would decrease throughput and 
increase security risks to our airport.
    We appreciate the importance of increasing enrollment in the TSA 
PreCheck program, and the benefit to airport security that comes from 
those vetted passengers. But the program is not yet living up to its 
full potential; enrollment numbers have consistently been below 
projected volumes, and enrollment options are severely limited. We 
believe strongly that TSA needs to first follow the direction mandated 
by Congress in the FAA Extension, Safety, and Security Act of 2016 to 
increase the public's enrollment access to the program; to deploy TSA-
approved ready-to-market private-sector solutions; to partner with the 
private sector to use kiosks, mobile devices, or other mobile 
enrollment platforms to make enrollment easier; and to consider 
leveraging existing resources and abilities at airports to conduct 
fingerprint and background checks. Only then, once certain enrollment 
benchmarks are met, should TSA implement plans to scale back the use of 
canine enhanced screening.
    Taking these steps in the reverse order is a recipe for disaster--
reducing both customer service and security. TSA PreCheck is an 
important threat reduction program, but we believe strongly that the 
bigger threat to airport and passenger security is long wait times that 
create soft targets for those that seek to inflict harm and terror on 
our facilities. Reducing the throughput benefits of canines would 
increase wait times at general screening lanes exponentially, erasing 
any security gains from incentivizing PreCheck enrollment.
    The timing of such changes should also take into consideration the 
massive deployment of Computed Tomography (CT) machines in the next few 
years. We support the added security that this advanced technology will 
provide but understand the significant work that will need to be done 
to address some of the challenges that its implementation will bring--
such as throughput rates, false alarm resolutions, and physical 
checkpoint configurations. TSA has not yet substantially engaged 
airport operators in sharing the plans for deploying the CT equipment, 
and our own experience working with TSA on ASL implementation has shown 
us the significant amount of time and resources necessary to see the 
full efficiency impacts of a new technology.
    While responsibility for passenger screening is, by law, the sole 
responsibility of TSA, airports play a critical role in partnering with 
the agency to help it meet its core mission. Airports perform a number 
of inherently local security-related functions at their facilities, 
including incident response and management, perimeter security, 
employee credentialing, access control, infrastructure and operations 
planning, and numerous local law enforcement and public safety 
functions. To that end, we hope that any changes that would impact 
security would be done in collaboration with us, rather than being 
imposed.
    The Port of Seattle looks forward to continuing to partner with TSA 
to ensure effective, efficient, and innovative security operations for 
the screening of passengers. Thank you for your time today, and I look 
forward to your questions.

    Mr. Katko. Thank you very much, Mr. Reiter, I am kind-of 
taken aback by the fact that you have 1-hour wait times. That 
is something that is not good from a security standpoint.
    It is an unsecure area of the airport, and that is exactly 
what we don't want to hear, so we are going to have to address 
that in a meaningful manner. We will follow up on that with our 
questions, for sure.
    Let us see, the next witness here is Mr. Michael McCormick, 
the executive director and chief operating officer for the 
Global Business Travel Association. In his current role, Mr. 
McCormick leads GBTA's growth and globalization initiatives. 
Previously he served as managing partner of Hudson Crossing, 
LLC, a travel industry advisory business. McCormick has also 
served as president of biztravel.com and vice president of 
global supplier relations for Rosenbluth International.
    Mr. McCormick is now recognized for 5 minutes for an 
opening statement.

STATEMENT OF MICHAEL W. MCCORMICK, EXECUTIVE DIRECTOR AND CHIEF 
     OPERATING OFFICER, GLOBAL BUSINESS TRAVEL ASSOCIATION

    Mr. McCormick. Thank you, Chairman Katko, Ranking Member 
Watson Coleman, and Members of the subcommittee. We appreciate 
the opportunity to testify today.
    I am Michael McCormick. I am executive director and chief 
operating officer of the Global Business Travel Association, a 
role I have been in since 2009.
    GBTA is the world's premier business travel and meetings 
trade association, headquartered here in Alexandria with 
operations on six continents. We have over 9,500 members, and 
manage over $345 billion worth of global business travel and 
meeting expenditures annually. GBTA has 38 chapters and 
affiliates across this country and operations around the world.
    I want to thank Chairman Katko for the time he recently 
spent in our New York State chapter. They are still bragging to 
all the other chapters about your January visit.
    GBTA's annual convention in the United States is the must-
attend event a year for business travel. We will have 7,000 
attendees in San Diego this year, with people from all over the 
United States as well as 50 countries.
    Last year's event had an economic impact of $22.5 billion--
million, just on the city of Boston alone in those 4 days. The 
event and the economic impact is just a small sample of the 
total impact of business travel and practice. Although we are a 
global organization, we are celebrating our 50th anniversary as 
a U.S. trade association here in Virginia.
    So in July 2017, we released a report that really showed 
the industry is responsible for $547 billion, about 3 percent 
of U.S. GDP, which is about the size of the domestic auto 
market.
    We support 7.4 million jobs and $135 billion in Federal, 
State, and local taxes. You know, we always say that business 
travel drives business growth. Companies invest in business 
travel to drive new business, create new jobs, and build 
shareholder value.
    But as this busy summer season ramps up, we are concerned--
as all of you are--about the past travel problems in screening 
as well as past statements and policies on foreign visitation, 
and the impact that has, not only in 2018 but beyond.
    Secure and efficient travel is a key platform in our 
legislative policy. We have been a supporter of PreCheck since 
the first iteration of registered traveler and because business 
travelers take over 500 million domestic business trips a year 
in this country alone.
    But our surveys cite that moving through airport security 
is one of the largest pain points still to this day. PreCheck 
clearly offers travelers a risk-based intelligence--you know, 
intelligence-driven aviation security that is safe, fast, and 
efficient. Time is money for business travelers, and 
inefficient procedures reduce business travel and a hassle 
factor that hurts the economy. We have found that TSA PreCheck 
not only improves the airport screening process, but the entire 
travel experience by a significant amount.
    However, the current practice of allowing non-TSA PreCheck 
members into the security lines continues to be voiced 
frequently as a concern by travelers enrolled in the program. 
It is our belief that this continued practice undermines the 
impetus to enroll, and calls into question the entire premise 
of the program, which is pre-screening travelers through--who, 
through background checks, have been identified as safe before 
they arrive at the airport.
    We need to put an end to this practice. GBTA fully supports 
the work done by the committee to limit those not only cleared 
for PreCheck to be allowed in those lanes. GBTA is prepared to 
support new legislation to prohibit the practice.
    As we saw in the summer of 2016, TSA PreCheck cannot be the 
sole answer to long security lines. In GBTA's opinion, accurate 
travel forecasts, well-thought-out policies, and solid analysis 
of historical data like our own business travel index are key 
to TSA's ability to adequately staff checkpoints.
    Our most frequent findings show that U.S.-origin business 
for travel is expected to accelerate significantly in 2018, 
advancing 6.1 percent followed by roughly 7 percent growth in 
2019 and 2020.
    Business travel gains have not reached this level since 
2011. But also in these findings is an unusually high impact of 
many global uncertainties. The Global Economic Policy 
Uncertainty Index, which began in 1997 has hit an all-time 20-
year high.
    We are at a time of conflicting and sometimes seemingly 
contradictory views on how the business travel marketplace is 
trending and what the future holds. On one hand as lower 
corporate taxes are pushed forward and business regulations are 
rolled back, some would argue that business travel is healthy.
    But other underlying factors have decidedly more negative 
impact on the future of business travel, including trade policy 
renegotiation, terrorism, travel and immigration bans, 
sanctions, electronic bans, and geopolitical tensions.
    GBTA is concerned that this uncertainty along with on-going 
rhetoric and policies will send the message that the United 
States is closed for in-bound global business. This dampening 
of demand for the United States as a business travel 
destination could cause a lasting negative economic impact that 
is masked in the near term by offsetting economic policies.
    This began with the current administration's first travel 
ban, which cost $185 million in business travel bookings in 
just 1 week. Then with a second, then a third ban followed 
which is awaiting ruling from the Supreme Court, driving 
further uncertainty.
    There is no question that uncertainty is bad for business 
travel and bad for our role in the global economy. When we 
looked at our uncertainty forecast last year, the impact that 
it was having was significant. We projected a loss of $1.3 
billion in overall travel-related expenditures in the United 
States, which includes hotels, food, car rental, shopping, all 
the ancillary expenses. That included $250 million lost in 
spending from in-bound travelers from Europe and the Middle 
East alone. Finally our new forecast coming out will be out in 
August, looking at not only last year's total numbers, but the 
impact going forward.
    So looking forward, again we are really concerned about all 
of this, as it affects meetings and business travel. When you 
are looking at those--that planning--that business is planned 1 
to 2 years out. We will only begin to see the impact of these 
decisions this year.
    So again, it goes without saying that GBTA strongly 
supports all of our efforts to keep the skies, borders, and 
country safe. We continue to be proponent for expanding proven 
security programs. I think a lot of the discussion that we have 
talked about here today so far and the questions coming 
forward--we have opportunities.
    I think there has been buy-in from TSA at the top, but not 
always the action we are looking for. So again, we have to find 
ways to look at the cumulative affect of all of these policies. 
Again, create the--change the rhetoric and the perception that 
United States is closed for business.
    GBTA stands ready to improve the travel process and to make 
sure that this becomes a reality. Again, we thank you again for 
the opportunity to be here today.
    [The prepared statement of Mr. McCormick follows:]
               Prepared Statement of Michael W. McCormick
                              May 17, 2018
    Chairman Katko, Ranking Member Watson Coleman, and Members of the 
subcommittee: My name is Michael W. McCormick, and I am executive 
director and chief operating officer of the Global Business Travel 
Association--a role I have served in since 2009. Thank you for the 
opportunity to testify regarding business travelers' perspective and 
perception on the TSA Checkpoints, the expedited traveler program 
PreCheck and the impact policy announcements and security management 
can have on business travel.
    The Global Business Travel Association (``GBTA'') is the world's 
premier business travel and meetings trade organization headquartered 
in the Washington, DC area with operations on six continents. GBTA's 
9,000-plus members manage more than $345 billion of global business 
travel and meetings expenditures annually. GBTA delivers world-class 
education, events, research, advocacy, and media to a growing global 
network of more than 28,000 travel professionals and 125,000 active 
contacts.
    GBTA has 38 chapters and affiliates across this country. GBTA's 
annual Convention in the United States is the must-attend event of the 
year for business travel. This August's event in San Diego will welcome 
over 7,000 attendees from across the United States as well as over 50 
countries. Last year's event had an economic impact of $22.5 million on 
the city of Boston. This event and economic impact is a small sample 
size of the total impact of business travel in practice. Although we 
are a global organization, our roots are in our history here as we 
celebrate our 50th anniversary as a U.S.-led trade association 
headquartered in Virginia.
               u.s. economic benefits of business travel
    In July 2017, GBTA released the ``The U.S. Business Travel Economic 
Impact Report''. This report as its name implies, shows the industry 
was responsible for about 3 percent ($547 billion) of U.S. GDP in 2016. 
The business travel industry supports 7.4 million jobs and generated 
$135 billion in Federal, State, and local taxes. Much of business 
travel's contribution to the economy accrues directly to industries 
that serve business travelers, but their supply chain beneficiaries 
received an additional indirect contribution of $132 billion.
    Based on these numbers, it cannot be overstated how important 
travel is to the U.S. economy . . . or any economy. As we always say, 
``Business travel drives business growth''. Companies invest in 
business travel to drive new business, create new jobs, and build 
shareholder value. But as the busy summer travel season ramps up, GBTA 
is concerned past travel problems in screening as well as past 
statements and policies on foreign visitation will impact the rest of 
2018 and beyond.
                              tsa precheck
    The Nation's businesses spent $424 billion to send travelers out on 
the road for 514.4 million domestic business trips including roughly 
144 million round-trip flights. Because of this mass of travelers, GBTA 
has made secure and efficient travel a key platform of GBTA's 
legislative policy. GBTA has been a supporter of TSA PreCheck since its 
first iteration as Registered Traveler. This support stems from 
understanding the issues that impact business travel. GBTA surveys of 
business travelers consistently cite moving through airport security as 
one of the largest pain points. TSA PreCheck offers business travelers 
a risk-based, intelligence-driven aviation security that is safe, fast, 
and efficient. Time is money for business travelers, and inefficient 
procedures reduce business travel due to the ``hassle factor'' and hurt 
the economy.
    GBTA's ``Business Traveler Sentiment Index'' profiles business 
travelers and our research shows TSA PreCheck enrollees are 
significantly more satisfied with air travel than those not enrolled. 
Two-thirds (66 percent) of travelers enrolled in TSA PreCheck are 
satisfied with getting through airport security, compared with just 47 
percent of business travelers not enrolled in the program. More 
striking is the impact the program has on the overall travel 
experience, 66 percent report satisfaction, compared to 54 percent for 
those not enrolled.
                          mitigation strategy
    GBTA believes in TSA PreCheck and continues to work with Congress 
and TSA to expand its marketing opportunity to grow the population 
enrollment. GBTA believes increased marketing and expanded third-party 
enrollment are vital to TSA achieving its goal of 25 million enrollees.
    However, the current practice of allowing non-TSA PreCheck members 
into the security lines continues to be voiced frequently as a concern 
by travelers enrolled in the program. GBTA fully supports the work done 
by the committee to limit only those cleared for TSA PreCheck to be 
allowed in the lanes. And GBTA is prepared to support new legislation 
to prohibit this.
    GBTA understands TSA has concerns over the impact this restriction 
may have on the other screening lanes. However, it is GBTA's belief 
that this continued practice undermines the impetus to enroll and calls 
into question the entire premise of the program, which is prescreening 
travelers who through background checks have been identified as 
``safe'' before they arrive at the airport. It's time to finally put an 
end to this practice, which confers all the benefits of PreCheck 
without requiring any of the burdens.
    While GBTA believes in the risk-based approach, as we saw in the 
Summer of 2016, TSA PreCheck cannot be the sole answer to long security 
lines. In GBTA's opinion, accurate travel numbers, well-thought-out 
policies and solid analysis of historical data and forecasts, like the 
``GBTA BTI Outlook--Annual Global Report & Forecast'' are key to TSA's 
ability to adequately staff checkpoints.
    The BTI's most recent findings show business travel spending is 
expected to accelerate significantly in 2018, advancing 6.1 percent, 
followed by roughly 7.0 percent growth in both 2019 and 2020. Business 
travel spending gains have not reached this level since 2011. Yet, also 
included in the findings was an unusually high impact of many global 
uncertainties. The Global Economic Policy Uncertainty Index, which 
began in 1997, has hit an all-time, 20-year high.


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    We are at a time of conflicting and sometimes seemingly 
contradictory views on how the business travel marketplace is 
trending--and what the future holds. On one hand, as lower corporate 
tax rates are pushed forward and business regulations are rolled back, 
some would argue that business travel is healthy. But other underlying 
factors have a decidedly more negative impact on the future of business 
travel including trade policy renegotiation, terrorism, travel and 
immigration bans, sanctions, electronics bans, and geopolitical 
tensions.
         impact of administration policy and rhetoric on travel
    GBTA is concerned this uncertainty along with on-going rhetoric and 
policies will send the message that the United States is closed for 
global business. This dampening of the demand for the United States as 
a business travel destination could cause a lasting negative economic 
impact that is masked in the near term by offsetting economic policies.
    This began last year with the current administration's first travel 
ban, which cost the United States $185 million in business travel 
bookings in 1 week. A second, then third travel ban followed, which is 
awaiting ruling from the Supreme Court, driving further uncertainty. 
There is no question that uncertainty is bad for business travel and 
bad for the global economy.
    In May 2017, GBTA developed an ``uncertainty forecast'' for 2017 
showing the impact that mounting geopolitical uncertainty was having on 
the economy by using first-quarter ticketing data from the Airlines 
Reporting Corp. (ARC), publicly-available travel data, and GBTA's 
economic research and models including the BTI. GBTA projected a loss 
of over $1.3 billion in overall travel-related expenditures in the 
United States in 2017 including hotels, food, rental cars, and shopping 
expenses that inbound travelers would have spent. That includes $250 
million lost in spending from inbound business travelers from Europe 
and the Middle East. U.S. GDP was projected to take a nearly $300 
million hit while potentially impacting more than 4,200 jobs along with 
$175 million in lost wages and a $70 million reduction in tax 
collections. Final 2017 numbers will be available in our annual Global 
Business Travel Index forecast due out in August 2018.
    The underlying concern is that this will have a significant long-
term impact on the economy as companies begin to host meetings and 
events in competitive non-U.S. destinations. In March 2017, following 
the second Executive Order on travel, GBTA polled its U.S. and European 
membership. Nearly 4 in 10 (37 percent) U.S. business travel 
professionals expected some level of reduction in their company's 
travel because of the revised Executive Order. Even more European 
travel professionals felt this way with 47 percent expecting some level 
of reduction in business travel for their company. Additionally, 17 
percent of European travel professionals reported that their company 
has already canceled business travel to the United States because of 
the Executive Orders issued.
    Thirty-eight percent of European business travel professionals said 
their companies would be less willing to send business travelers to the 
United States in the future because of the Executive Order, and 45 
percent indicated their company will be less willing to plan future 
meetings and events in the United States. With meetings and events 
typically planned 1 to 2 years out, we will only begin to see the 
impact of these decisions this year.
    The poll also revealed that when asked about top concerns regarding 
the immigration ban on your travelers, increased traveler harassment in 
general (41 percent), uncertainty regarding green card and approved 
visa credibility to enter the United States (34 percent), and 
harassment of U.S. travelers to and from the Middle East (34 percent) 
topped the list.
    It goes without saying that GBTA strongly supports all efforts keep 
our skies safe. GBTA continues to be a proponent for expanding proven 
security programs and developing new technology to facilitate 
information sharing among governments to ensure travelers are always 
vetted properly, making us all more safe and secure. Yet, it is the 
cumulative impact of anti-travel policies and rhetoric that leave the 
perception to many that the United States is closed for business.
    It is imperative that we reverse this tide of negative perception. 
As found in the GBTA economic study, a 1 percent decrease in business 
travel spending alone causes the U.S. economy to lose 74,000 jobs, $5.5 
billion in GDP, $3.3 billion in wages, and $1.3 billion in taxes.
    GBTA stands ready to assist in improving the travel process and to 
remind all that perception can be reality. GBTA urges consideration of 
the important lasting impact of business travel and hopes policies will 
be enacted going forward that preserve both our National security and 
our economy for the future.

    Mr. Katko. Thank you Mr. McCormick, appreciate your 
testimony. I appreciate the testimony of all four of you, and I 
am really glad that--that TSA is here to--to hear it all. I am 
not going to get into specifics, but if you could just briefly 
answer to me.
    Could you just--each of you just quickly tell me--the 
concerns you have raised are very valid concerns. Some very 
good ideas, like merging Trusted Traveler and TSA and those 
types of things.
    Don't have time to get into all of them, but how much 
interaction or how much--how should I say, meaningful 
interaction have you had with TSA in sharing your ideas with 
them? If you could just tell me briefly, each of you?
    Ms. Howerton. Excuse me, sure. We have shared our 
recommendations with TSA last November. We published a report 
called Transforming Security at the Airports. We actually have 
given this report to the administrator and many of the people 
that are over at TSA.
    Excuse me. In addition--excuse me. The ASAC Checkpoint of 
the Future Report that came to Congress embodies the same 
recommendations that I have posed here today.
    Mr. Katko. OK, thank you. Ms. Pinkerton.
    Ms. Pinkerton. We work with TSA almost on a daily basis. We 
can't say enough praise for Administrator Pekoske, Darby, and 
others on his team that have done an outstanding job post the 
summer of 2016, setting up that kind of regular communication 
and coordination.
    Now, I will say, some of the issues that we have talked 
about, some of these ideas, we have been talking to them about 
them for years. So--the coordination though is very good.
    Mr. Katko. OK. Ms. Reiter.
    Ms. Reiter. I would say the same thing as Sharon. The 
associations and airports communicate often, if not daily with 
the--with the TSA. It has been some of them for a long time in 
discussion, particularly PreCheck.
    Mr. Katko. OK. Mr. McCormick.
    Mr. McCormick. Yes, I would say the same. I mean the 
interaction is terrific, and again we get buy-in from, you 
know, the top down. But the reality is is that some of these 
areas we have to accelerate. Particularly the marketing of the 
programs to the corporations.
    It is--you know, it was mentioned in--in your testimony. 
But there is a huge opportunity with the corporations 
community. These are people who are already vetted, already--
the corporation knows more about the travelers than TSA even 
needs to, to have them qualify for PreCheck.
    But it is--but the--the agency is maybe not the best at 
driving those programs, as to why we need the third-party 
enrollment, why we need to really aggressively go after the--
the opportunities that are there in front of us.
    Mr. Katko. OK. Well I--I commend TSA for making yourselves 
available and doing the things you are doing to interact with 
the--with the--the stakeholders. It is not an easy job you 
have, but I commend you for interacting with them.
    It is clear that since my time in as Chair that things have 
got a lot better at TSA. A lot of it is because you are 
listening, and that is--that is a good thing, so I commend you 
for that. Also, again looking at 2016 as a good example of 
that. Because there was a crisis at the travel times. We 
learned that field service directors may not be interacting 
with the airlines as much as they should. They fixed that. They 
have--they have learned to open their gates a little bit 
sooner; they fixed that.
    They have learned to anticipate flows better and they fixed 
that. All those things are helping, and just keep going, 
because I think they are making a difference. But I want to--I 
want to still--you know talk more--a little bit more about 
PreCheck.
    It is really surprising to me why more airports do not have 
kiosks at the airport. It seems like such a basic, simple thing 
to do. You saw what happened in my airport, but I--you heard my 
statements earlier about what has happened there with 
enrollments. It has gone through the roof. Why can't airports 
do it and what would be the impediment for them doing it? Any 
suggestions, anything you are--Ms. Reiter, yes?
    Ms. Reiter. There had--there are quite a bit of 
restrictions that are put on the one company in what they need 
for infrastructure that is really difficult for the company to 
do, as well as some of the airports to get them the 
infrastructure that they need. So it is difficult for them to 
come into the airports.
    Mr. Katko. When you say restrictions, who is causing these 
restrictions? The airports or is that the----
    Ms. Reiter. It is actually I think what TSA requires of the 
company to--to have to be able to get into the airport.
    Mr. Katko. Can you give us some examples, just so I 
understand better?
    Ms. Reiter. Like how thick the walls need to be and what 
kind of infrastructure they need and what kind of IT 
requirements they need. It is extremely difficult for them to 
get in.
    Mr. Katko. OK, but do you have it at your airport?
    Ms. Reiter. I do.
    Mr. Katko. How do--how do you--how is it working?
    Ms. Reiter. It is working great. it is working fine, yes. 
Yes, and--and we have increased PreCheck because of that.
    Mr. Katko. Ever. Perhaps we should have a good discussion 
with TSA with the Chairman--with the administrator on how we 
can help maybe tweak that process and expedite it, because we 
really--we need to get them at airports. I haven't heard anyone 
that has them at airports say it is not good. So what is--how 
do we expand to other airports? How do we incentive other 
airports to get there? Most--maybe we straighten out some of 
these things but what are some of the--is it reluctance at 
other airports to give up space or what is it?
    Ms. Pinkerton. I don't think there is reluctance but I 
would just make a pitch again for mobile enrollment. I mean, 
this--we are--everybody is using their mobile and it wouldn't 
require a heavy infrastructure investment. Again, I hear TSA 
talking about it. We just--we need to get it done.
    Mr. Katko. OK. Anything else, Ms. Howerton.
    Ms. Howerton. I concur with both of those comments.
    Mr. Katko. OK.
    Ms. Reiter. Sir, there are other airports that have offered 
to actually put it in their credential centers, the smaller 
airports that have the staff and are willing to do that kind of 
as a third party that has been out there for years. So there 
are other opportunities.
    Mr. Katko. Yes, because it seems to me that the key to 
anticipating like Mr. McCormick said the increase in travel, I 
mean, those projections are 30 percent more air travel in the 
next decade or two, we have got to be ready for it, right. If 
we don't have PreCheck and we don't have ways to expedite the 
screening processes we are going to be in trouble.
    I think that K-9's is a good, maybe an intermediate way to 
do it. But that is definitely a way to do it I think. But it is 
not a foolproof way. It is not the best way if you don't know 
the traveler. I mean if you know the traveler PreCheck is the 
best way, I think, and we have got to really push that.
    So, we should spend more time and I would like to--if there 
is any other ideas you have about PreCheck, I definitely want 
to hear from you because to me it is one of the keys. If we can 
get to that 25 million I think we are going to have a 
dramatically different landscape at airports.
    It really troubles me why you have 1-hour waits. I know you 
are a popular airport, you are one of the most popular in the 
country but--and that is to your credit, but is there something 
we are missing as to why those wait times are being caused?
    Ms. Reiter. I think there has been a change in how the use 
of dogs is--how long they can be used that probably should be 
discussed as well down the line. I think there is also some 
discussion about the attrition rate at our airport. We are one 
of the airports that the attrition rate is extremely high.
    Thank goodness, the--TSA is working with us on that that. 
We have great collaboration with them. So, thank you Mr. 
Lajoye. He--they are working from top down on that. So, we are 
struggling with that as well. So and just we are really a peak 
airport but we are really struggling between K-9s and 
attrition. It is tough.
    Mr. Katko. All right. I thank you very much. I just--keep 
your input coming. I mean, obviously one of the reasons we had 
this hearing today is because I heard from you about the 
concerns about the wait times and we have got to--I think we 
really need to put our heads together, TSA and all of us in the 
industry to figure out how the best way to market this.
    You gave some good ideas and we are going to go back and 
talk about them and I am always willing to legislate. So, we 
will see what we can do here. With that, I will recognize Mrs. 
Watson Coleman for 5 minutes of questions.
    Ms. Watson Coleman. Thank you, Mr. Chairman. I am certain 
you heard a little bit of my opening statement as it relates to 
what is happening with international travel and I would like to 
pursue that, particularly with Mr. McCormick and Ms. Howerton.
    The data shows that the sharpest declines in inbound 
international visits came direct--came directly following 
President's first two travel bans. There has also been a sharp 
decline in tourists coming from Mexico which many have 
speculated is a direct consequence of the President's plan to 
build a wall along the Southern Border.
    I have a series of questions in support of this premise, 
and my first question is what message do you believe that the 
President's policies and rhetoric are sending to the 
international visitors, Ms. Howerton and Mr. McCormick? If any.
    Mr. McCormick. Yes, I think, so last year when the second 
Executive Order was put out in March, we polled our European 
membership and 38 percent of business travel professionals said 
their companies would be less willing to send business 
travelers to the United States and 45 percent said they would 
be less willing to plan future meetings and events in the 
United States.
    Ms. Watson Coleman. Can you translate that into money?
    Mr. McCormick. Yes, the impact there, I mean, we were 
estimating last year the impact could have over, like a $1.3 
billion impact on the--on travel expenditures and related 
expenditures here in the United States. The problem is, is that 
when you are talking about this, particularly group and meeting 
travels, it is planned, again, 1 to 2 years out.
    So we are not even going to begin to see the impact of 
those changes until now and into next year. So again that 
rhetoric is difficult, right, because just factually it has an 
impact on perception about doing business. In a global economy, 
again, companies have options.
    They don't have to come here for that type of travel. They 
can go anywhere else. So, that does create a problem for us as 
an industry.
    Ms. Watson Coleman. OK. Thank you. Ms. Howerton, do you 
have anything to add to the Trump slump question?
    Ms. Howerton. Yes, I do, thank you very much. Actually the 
U.S. market share in international travel has been sliding 
since 2015. So it is not new to this administration. That being 
said, the fact that there is not a welcoming message and what 
we are hearing through all of the other issues for 
international visitation is hurtful to continuing an incline in 
international travel.
    We do need the President's help. It is pretty clear. Robust 
travel is both compatible with his priorities for strong 
security and it is critical to the priority to grow jobs. So we 
are hopeful that we will see an increase once we get some more 
movement underfoot for positive messaging.
    Ms. Watson Coleman. So do you think we are going to--well, 
OK. So you believe that this is related to some positive 
messaging. Has your industry been able to do anything to sort-
of express this concern to the parties or party principally 
responsible for the depression of international travel because 
of the rhetoric? Have you all like sought meetings with those 
entities or individuals who would--who are responsible for 
this?
    Ms. Howerton. We actually are a member of a U.S. travel 
coalition, Visit U.S. Travel Coalition, and it is a coalition 
of many members both members that are with in the U.S. travel 
footprint of membership and organizations that are outside of 
it. The primary purpose of this organization is to work with 
the administration on ways we can increase international 
travel, ways we can message it, ways we can impact 
international visitors coming here and the jobs that 
international travel creates.
    Ms. Watson Coleman. So have you specifically been able to 
communicate to anybody in the administration representing the 
interests of this President or even the President himself the 
concerns that have been raised by the rhetoric, the negative 
rhetoric and how it has impacted possibly people coming from 
Mexico and people coming from other places around the world. 
Have you, to your knowledge, Ms. Howerton or you to your 
knowledge, Mr. McCormick?
    Ms. Howerton. We have had meetings with the--with 
administration officials, yes we have.
    Ms. Watson Coleman. Have they recognized the possibility of 
this being a problem and seeking to a course correction here? 
As if anybody has any control over the President's mouth.
    Ms. Howerton. They had listened intently.
    Ms. Watson Coleman. Thank you. Mr. McCormick, do you have 
anything to share on it?
    Mr. McCormick. No, I think on that front--I mean, again, we 
have also met with the administration and every--and--and 
anyone that will meet and listen, because of the importance of 
this issue.
    I mean it is critical. This business travel drives the 
economy, and I think there is a--there is an understand that--
of that, but I think, again, we have a lot more work to do to 
have that fully embraced in a way that affects the way work is 
done.
    Ms. Watson Coleman. While I have several more questions, I 
am going to close with this question. Like I know this is is 
going--this is impacting jobs, impacting spending, impacting 
our economy negatively.
    What is it that you think Congress can do to help to 
counteract the Trump slump's impact on incoming international 
travel? I would be interested in knowing, and with the answer 
to that question, Ms. Howerton, Mr. McCormick or anybody else 
that is at the witness table would like to respond to that, I 
would yield back after that.
    Mr. McCormick. Well, I would just say that I think you are 
doing it. I mean this is a perfect example of very good 
bipartisan efforts to address the issues that are affecting 
travel and to give us the forum to deliver the message.
    I mean I think that we could do more together, I think to 
have those meetings and to impress upon everybody about this 
importance, again, we are all on the same side on this issue. I 
mean this is--this is something that I don't think there is 
anything we are saying here that you would have an argument 
against. The tactics of the issue, right, and the enforcement 
is the issue.
    Ms. Watson Coleman. But you know, last comment.
    Mr. Katko. That is fine.
    Ms. Watson Coleman. While we are focusing now on 
international travel coming to us, there is also a question 
about whether or not we as Americans, businesses, whatever, are 
reluctant to go to do international travel, because for fear 
that we are not liked anymore as a result of this kind of 
rhetoric.
    So something--this whole area is something that we need to 
explore a little bit close--more closely in the upcoming 
future.
    With that.
    Mr. McCormick. Well again, I mean we would welcome the 
dialog because companies have a bigger obligation in terms of 
duty of care and risk management. We are sending travelers now 
all over the world to destinations to do business and to grow 
business.
    I mean companies--every company is global these days, every 
company has business, is looking for new business anywhere in 
the world. So I mean the--we do have an obligation, we have an 
obligation as a country, right, to address the issues and to 
give companies that are driving our economy the support they 
need.
    Ms. Watson Coleman. As our ally base seems to be shrinking, 
we need to be very careful preserving and protecting our 
opportunities internationally. Thank you, Mr. Chairman, I yield 
back.
    Mr. Katko. Thank you, Mrs. Watson Coleman, and I thank all 
of you for you testimony here today, it has been very helpful 
and very thought-provoking and my poor staff is going to get 
tortured with a lot of assignments now from--because of that.
    But I do--I do understand and I appreciate the problem and 
I appreciate the much better interaction with the industry than 
there has been, and I commend all of you at TSA for that.
    Thank all of you for keeping with it, because it is really 
important, and the more we hear from you the more we know what 
to do. So I thank you for that very much. Before we wrap up, I 
just want to let you know that we have the PreCheck bill coming 
and that will be coming in the next week or so.
    You sure? OK, week or so.
    Yes. Those are my bosses back here. But they--we will be 
getting that out, and it is not to torture TSA, it is just to 
make sure we make it clear that PreCheck means PreCheck. But 
there are also things we can do to help exploit the program, 
and I think we can--I think the--the merger of--of the two 
systems is a good idea, and some of the other things that we 
can do.
    So we thank you for that as well, and with that, I want to 
thank all the Members for your testimony. Members of the 
committee may have some additional questions for the record, 
and witnesses are--and we will ask you to respond to those in 
writing.
    Pursuant to committee rule VII(D), the hearing record will 
remain open for 10 days. Without objection, the committee 
stands adjourned.
    [Whereupon, at 11:16 a.m., the subcommittee was adjourned.]



                            A P P E N D I X

                              ----------                              

    Questions From Honorable Bonnie Watson Coleman for Darby LaJoye
    Question 1a. TSA has proposed addressing concerns regarding 
unvetted passengers going through PreCheck screening by introducing a 
new lane at checkpoints that would fall between PreCheck and standard 
lanes.
    How will TSA accomplish this when there is already a shortage of 
lanes and staffing resources at most airports?
    Question 1b. Will creating more types of lanes exacerbate the 
challenges of making sure each lane is available and being fully 
utilized?
    Answer. As TSA improves its ability to differentiate passengers 
through enhanced technology and vetting, it will be able to adjust 
procedures based on the determined risk. While still in the planning 
phase, the intent is for such adjustments to increase checkpoint 
efficiency, while ensuring that passengers still receive the 
appropriate level of screening based on the identified risk level.
    Additional segmentation of passengers has the possibility of 
creating operational challenges. Recognizing such, TSA is exploring 
different options to assess operational feasibility. How changes will 
impact operations, especially during lower volume periods and at 
smaller checkpoints, will be key takeaways from any option explored.
    Question 2a. Administrator Pekoske has stated his intent to move 
toward more tailored screening of the flying public. Under his proposed 
vision, more and more levels of screening would exist, and each 
passenger would be provided a level of screening based on the risk TSA 
believes they present.
    How do you intend to avoid setting up a system that essentially 
benefits wealthy travelers who are able to pay for Trusted Traveler 
Program enrollments while penalizing less wealthy travelers?
    Question 2b. What would you say to those who have expressed 
concerns that this approach would incentivize people to offer more and 
more information about themselves to the Government and penalize people 
who care about their privacy and civil liberties?
    Answer. TSA strives to continuously improve passenger security 
screening while maintaining high levels of security and privacy 
protections. TSA employs a risk-based approach that enables it to move 
away from ``one-size-fits-all'' passenger security screening model and 
instead focus agency resources and efforts more effectively on those 
who pose greater or unknown risk. TSA established TSA PreCheck for 
expedited screening of low-risk passengers at airport checkpoints 
across the country beginning in 2011 as part of this risk-based 
security approach.
    Since then, TSA has continually evolved its processes to 
differentiate passenger screening protocols, adjusting its security 
measures to better address changing security and threat environments 
while balancing available resources, airport-specific constraints, and 
planned travel volumes. TSA's planned changes are a continuation of its 
goal to screen passengers at a level commensurate to their level of 
assessed known or unknown risk.
    There are multiple avenues for individuals to be deemed eligible 
for TSA expedited screening, ranging from direct enrollment in a DHS 
Trusted Traveler Program; being a member of an approved, pre-vetted 
group such as active-duty military; or canine-expedited screening on a 
flight-by-flight basis. TSA is looking to further differentiate 
screening measures within its pool of identified low-risk travelers 
based on the level of prescreening and information available to TSA to 
evaluate the degree of passenger risk. The additional information 
needed is often information like mailing address which passengers 
already provide to the airlines. By selecting to share that basic 
information with TSA, passengers may be able to gain access to 
expedited screening without any cost.
    Participation in a DHS Trusted Traveler Program, such as the TSA 
PreCheck Application program, is voluntary. TSA must be able to charge 
fees in order to cover the costs for performing the Trusted Traveler 
vetting. TSA consistently evaluates the pricing models for the TSA 
PreCheck Application Program to ensure it is accessible for the general 
public. Currently, the $85 fee for a 5-year enrollment with the TSA 
PreCheck Application Program equates to $17 per year, or less than $5 
per trip for travelers who fly at least four times per year. The 
pricing structure is much lower than similar programs, and the 
application fees that are collected are required to maintain the 
enrollment and vetting operations, and overall management of the 
program. TSA will continue to look for ways to lower the application 
fees for this and other programs, through formal fee-analysis.
    Safeguarding sensitive personal information and ensuring the 
protection of civil liberties are paramount to the overall success of 
any DHS Trusted Traveler Program. Passengers are all required to submit 
minimum information necessary for TSA to satisfy statutory requirements 
to identify those individuals on a watch list that may pose a threat to 
transportation and National security. Individuals willing to 
voluntarily provide additional information may apply for a DHS Trusted 
Traveler Program in order to validate identities and conduct security 
threat assessments to evaluate the degree of risk posed by that 
individual to the aviation transportation system. Individual 
application information is carefully handled and safeguarded.
    Question 3a. TSA will need to continue to increase enrollments in 
PreCheck to ensure the program's success.
    Please describe in detail any current or forthcoming campaigns for 
increasing PreCheck enrollment.
    Answer. In 2017, TSA studied its customers and the factors that led 
them to enroll in the TSA PreCheck Application Program. TSA is 
leveraging the findings to implement a 5-year Enrollment Growth 
Strategy, which includes initiatives to boost enrollment by increasing 
program convenience and accessibility. TSA's enrollment contractor 
plays an important role in growing enrollment and has been piloting 
ways to streamline enrollment options. Information used in the 
development of the strategy is acquisition sensitive, and will be 
available to Members once the enrollment services contract is awarded. 
The current enrollment contract is in the final stages of a Request for 
Proposal process and with the new contract we expect additional 
functionality and capabilities for enrollment and marketing.
    With the first wave of TSA PreCheck Application Program membership 
expirations occurring this fall, TSA is working hard to maintain 
existing enrollment levels. To do so, TSA has designed a renewal 
process that will not require an in-person visit for existing 
enrollees, allowing for a seamless renewal experience that still 
includes a robust threat assessment. In addition to the sustainment 
initiatives, TSA will support the following activities aimed at 
increasing enrollments:
    Low-Risk Vetted Populations.--An effort created to take existing 
populations that go through a similar vetting process to TSA PreCheck 
(i.e., Federal Employees) and provide those individuals the ability to 
opt-in to TSA PreCheck.
    Marketing.--TSA PreCheck marketing efforts focus on promoting the 
brand and the experience of TSA PreCheck as well as increasing customer 
knowledge and awareness of the program. TSA PreCheck will launch an 
advertising campaign in Summer-Fall of 2018 to accelerate enrollments 
of the frequent traveler customer segment (3-15 round trips per year) 
in the top 7-15 U.S. geographical markets. In addition, TSA will 
continue to engage with TSA PreCheck partners to include the 53 
airlines and dozens of private-sector businesses in the hotel, credit 
card, travel management, rental car, association, and destination 
marketing industries. TSA PreCheck partner relationships drive high-
value by promoting the brand and reaching target customer segments.
    Question 3b. What are the physical requirements for an airport to 
add a PreCheck enrollment kiosk, and how is TSA working to make this 
process easier and more accessible?
    Answer. TSA is testing portable enrollment solutions that can be 
utilized in airports and other types of locations/events, making 
enrollment easier and more accessible. These portable solutions require 
an in-person interaction with TSA PreCheck applicants and a Trusted 
Enrollment Agent to verify identity and collect biometrics from that 
verified individual, as TSA security threat assessments rely on 
accurate identity and biometrics collection. Physical privacy 
requirements are necessary for enrollment kiosks, such as physical 
space/barriers to ensure there is no visual or audible unauthorized 
disclosure of Personally Identifiable Information (PII). In addition to 
privacy requirements, secure internet connections and power sources are 
also required to operate enrollment equipment, to ensure data is not 
stored on the endpoint device. Additionally, there are requirements to 
lock down the enrollment equipment/kiosk and store it safely when not 
in use.
    Question 3c. What current barriers exist that prevent the merging 
of TSA and CBP Trusted Traveler programs and the establishment of co-
located enrollment centers?
    Answer. Identifying opportunities for collaboration and increased 
efficiencies between TSA and CBP Trusted Traveler Programs has been an 
important focus for both organizations over the last 6 months. A 
working-level group of representatives from both organizations meet on 
a monthly basis to better understand overlaps and potential points of 
collaboration. Additionally, the group has identified several areas 
that will need further assessment in order to further integrate the two 
Trusted Traveler Programs. The working group continues to strive toward 
merging the programs as they work through each of the areas detailed 
below.
    Enrollment Operations.--While both CBP and TSA Trusted Traveler 
Programs work to identify potential threats to transportation and 
National security, as a law enforcement organization with enforcement 
authority over a broad range of immigration and customs laws, CBP must 
conduct additional steps in its enrollment process that are not 
required for the TSA process. These steps include an in-person 
interview with a CBP officer. Additionally, TSA enrollment centers are 
staffed entirely by contactors, with adjudication and final 
determination of eligibility made by TSA employees. CBP instead 
requires CBP officers to staff the entire enrollment process, resulting 
in differences in labor costs. The working group has identified 
potential enrollment process solutions that meet these CBP 
requirements.
    Information Technology Infrastructure.--Both components own 
enrollment IT infrastructure, which the fee-funded Trusted Traveler 
Programs support, specifically $85 for TSA PreCheck Application Program 
and $100 for CBP Global Entry. Currently, both TSA and CBP are 
evaluating the creation of a single DHS on-line portal to support 
Trusted Traveler Programs, including the potential to facilitate the 
enrollment of some Global Entry applicants at TSA enrollment centers. 
The Information Technology (IT) system infrastructures of both programs 
support more than 30 other vetted populations. For example, the IT 
system that supports TSA PreCheck also supports the Hazard Material 
Endorsements Program, Aviation Workers Programs, Transportation Workers 
Programs, and others, which is a factor that needs to be considered if 
merging these systems.
    Populations Served.--CBP applicants must hold a passport, which TSA 
does not require as part of its enrollment program. Additionally, TSA 
PreCheck applicants must be U.S. citizens or legal permanent residents, 
whereas CBP allows applications from citizens from additional approved 
countries. The differences in the populations served by these two 
Trusted Traveler Programs will need to be addressed.
    Question 4a. We often hear about how TSA meets its wait time 
standards for 99 percent of passengers. However, this was true even in 
2016 when many passengers were waiting in lines for hours. I understand 
the threshold for reporting long lines is 30 minutes for standard lanes 
and 15 minutes for PreCheck lanes.
    How did TSA develop its standards for reporting wait times?
    Question 4b. Why did the standards change from 20 minutes for 
standard lanes and 10 minutes for PreCheck lanes?
    Question 4c. How does TSA measure wait times?
    Question 4d. How can TSA refine its wait time data measurements to 
provide a better overall picture of how operations are functioning?
    Answer. TSA maintains a standard target of 20 minutes for standard 
lanes and 10 minutes for TSA PreCheck lanes. TSA requires all Federal 
Security Directors (FSDs) to report to the TSA Airport Operations 
Center (AOC) when wait times exceed 30 minutes in standard or 15 
minutes in TSA PreCheck lanes. The report includes the perceived cause 
of the wait time and the mitigation strategy.
    The AOC reporting requirements were developed to provide TSA 
leadership and stakeholders situational awareness. The threshold went 
through several iterations to reach 30 minutes for standard lanes. 
Initially, the threshold for reporting standard lanes was 45 minutes. 
This was revised to 40 minutes and then 30 minutes in September 2016. 
At 30 minutes, the appropriate number and severity of events is 
reported to leadership and TSA is currently better-positioned to 
address the issue and limit the impact on passengers and stakeholders 
than in years past. The 15-minute threshold for TSA PreCheck has 
remained the same.
    TSA has an operational directive which details the procedures for 
measuring wait times. Specifically, wait times are measured in actual 
time, using a verifiable system such as wait time cards, closed circuit 
television (CCTV) monitoring, or other confirmable methods. Wait times 
are measured from the end of the queue to the walk-through metal 
detectors or Advanced Imaging Technology units. TSA is assessing how 
measurements could be improved through automation in order to provide 
real-time data to TSA officials and stakeholders.
    Questions From Ranking Member Watson Coleman for William Russell
    Question 1a. GAO recently completed a study of TSA's model for 
allocating staff across airport checkpoints.
    Is TSA's allocation model based on the number of officers it has 
funding for or the number of officers TSA really needs to operate?
    Answer. The Transportation Security Administration (TSA) uses a 
resource allocation plan to allocate staff across airports. According 
to TSA officials, TSA identifies the number of transportation security 
officers (TSO) authorized by the agency's budget and uses this number 
as a constraint when running the model to determine the allocation of 
TSOs across airports.
    Question 1b. What would be the benefits of having a model that is 
not constrained by budget limitations?
    Answer. According to TSA officials, the agency has reached its 
budget cap for the number of TSOs that the agency can afford to employ. 
In addition, officials told us they have conducted an analysis of the 
ideal number of TSOs needed to staff airports using its staffing 
model--unconstrained by budget limitations--and that the model produces 
a number of officers greater than the number TSA can afford given its 
current budget. We believe that the results of the unconstrained model 
could be compared to the results of the constrained model to help TSA 
determine the actual gap in staffing and inform the allocation of TSOs 
across airports by identifying those airports with the largest gaps.
     Questions From Ranking Member Watson Coleman for Wendy Reiter
    Question 1a. One of the major issues TSA faces in addressing 
increasing passenger volumes is a lack of space at many airports. TSA 
simply does not have the room to install additional lanes.
    How are airports addressing this issue, both in the short term and 
long term?
    Answer. Response was not received at the time of publication.
    Question 1b. How well does TSA communicate its real estate needs to 
airports?
    Answer. Response was not received at the time of publication.
    Question 2. In your testimony you mentioned that TSA hiring 
struggles to keep pace with the attrition of TSA officers to the 
higher-paying jobs that your region's economy is creating.
    What are some steps that TSA can take to address such attrition 
challenges in your region and others?
    Answer. Response was not received at the time of publication.
 Questions From Ranking Member Watson Coleman for Michael W. McCormick
    Question 1. Under this administration, we have seen a lot of 
uncertainty regarding security and regulatory policies, as the 
President seems to change his mind on policies day to day, and many of 
his decisions get held up in court.
    How does policy uncertainty affect business travelers and the 
travel industry?
    Answer. Business planning in an environment with turmoil and 
unpredictable change is difficult. Business leaders would much rather 
have certainty and predictability so that they can allocate capital and 
plan business appropriately for the long term. In response to the 
travel bans, GBTA developed an ``uncertainty forecast'' released in May 
2017 showing the impact that mounting geopolitical uncertainty was 
having on the economy. The forecast was based upon airline ticketing 
data, publicly available travel data and GBTA's economic research and 
modeling. This included our Global BTI--GBTA's annual business travel 
forecast and outlook and the Global Economic Policy Uncertainty Index, 
which began in 1997, and hit an all-time, 20-year high in uncertainty 
this past year.
    In its ``uncertainty forecast'', GBTA projected a loss of over $1.3 
billion in overall travel-related expenditures in the United States in 
2017 including hotels, food, rental cars, and shopping expenses that 
inbound travelers would have spent. That includes $250 million lost in 
spending from inbound business travelers from Europe and the Middle 
East. U.S. GDP was projected to take a nearly $300 million hit while 
potentially impacting more than 4,200 jobs along with $175 million in 
lost wages and a $70 million reduction in tax collections. Final 2017 
numbers will be available in our annual Global Business Travel Index 
forecast due out in August 2018. The underlying concern is that this 
will have a significant long-term impact on the economy as companies 
begin to host meetings and events in competitive non-U.S. destinations.
    Question 2a. You testified to how President Trump is driving a 
downturn in international travel to the United States.
    Are decreases in visits to the United States occurring primarily 
among visitors from certain countries and regions? Which ones?
    Question 2b. Do you believe there is a correlation between 
President Trump's statements and policies and the nationalities of 
travelers who are visiting the United States less? For example, are 
travelers from Mexico or majority-Muslim countries visiting the United 
States less?
    Answer. GBTA is unable to specifically address these questions 
since our survey does not directly measure decreases in visits to the 
United States--it measures sentiment and anticipated impact.
    However, GBTA conducted a lightning poll of its U.S. and European 
members this June revealing 62 percent of U.S. travel buyers believe 
this administration is having a negative impact on business travel. 
Additionally, 38 percent of European travel buyers say their 
willingness to plan meetings and events in the United States has 
decreased because of the administration's Executive Orders and a 
similar number (39 percent) say the administration's policies and 
messaging on travel and immigration have negatively impacted their 
company's willingness to plan meetings and events in the United States.
    Question 3a. In your role as the GBTA Executive Director and COO, 
you have published several blog posts on business travel and the 
negative impact the Trump administration's policies have had. In a 
January 2018 post, you warn of the ``economic consequences of 
continuing down a path of discouraging travel and portraying the United 
States as an unwelcoming destination.''
    Do you believe that the current perception that the 
administration's anti-international travel policies have created is 
reversible, and if so, how could the administration go about reversing 
it?
    Answer. When policies are introduced without consulting 
stakeholders and presented without warning, it causes further damage to 
the United States as a destination for foreign travel. However, it is 
not irreparable. The U.S. economy remains strong and is an attractive 
place for business. The President comes from the hospitality industry 
and should understand the importance travel has on the economy. It 
remains unclear if his past experiences will change the 
administration's stance, however.
    Question 3b. In the absence of a change of course from the 
administration, how can Congress and travel industry stakeholders 
assuage the concerns of international travelers caused by the 
administration?
    Answer. Continue to expand the Visa Waiver Program and to include 
all E.U. country members where possible while maintaining high security 
standards.
    Implement additional Trusted Traveler reciprocal agreements with 
countries where possible.
    DHS should conduct regular collection and analyzation of traveler 
feedback data. This information should be available to the partner 
organizations such as GBTA. It should also be used as the basis for 
developing best practices for all relevant agencies.
    Encourage relevant agencies to find more areas of cooperation to 
pool resources and intelligence.
    Congress can work closer together in a bi-partisan fashion to 
encourage the White House to rethink protectionist policies that impact 
travelers and businesses alike.

                                 [all]




</pre></body></html>
